<html>
<title> - GAO REPORT ON TRIBAL ACCESS TO SPECTRUM: PROMOTING COMMUNICATIONS SERVICES IN INDIAN COUNTRY</title>
<body><pre>[Senate Hearing 116-116]
[From the U.S. Government Publishing Office]


                                                   S. Hrg. 116-116

   GAO REPORT ON TRIBAL ACCESS TO SPECTRUM: PROMOTING COMMUNICATIONS 
                       SERVICES IN INDIAN COUNTRY

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 18, 2019

                               __________

         Printed for the use of the Committee on Indian Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-465 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------




                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               JON TESTER, Montana,
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                CATHERINE CORTEZ MASTO, Nevada
MARTHA McSALLY, Arizona              TINA SMITH, Minnesota
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 18, 2019...............................     1
Statement of Senator Cortez Masto................................    26
Statement of Senator Daines......................................    28
Statement of Senator Hoeven......................................     1
Statement of Senator Lankford....................................    35
Statement of Senator McSally.....................................    31
Statement of Senator Schatz......................................    29
Statement of Senator Smith.......................................    33
Statement of Senator Udall.......................................     2

                               Witnesses

Nelson, Belinda, Chairperson, Gila River Telecommunications, Inc.    20
    Prepared statement...........................................    21
Sekaquaptewa, Kimball, Chief Technology Director, Santa Fe Indian 
  School.........................................................    15
    Prepared statement...........................................    17
Stockdale, Jr., Donald K., Chief, Wireless Telecommunications 
  Bureau, Federal Communications Commission......................    11
    Prepared statement...........................................    12
Von Ah, Andrew, Director, Physical Infrastructure Issues, U.S. 
  Government Accountability Office...............................     3
    Prepared statement...........................................     5

                                Appendix

Ortiz, Raymond V., Board Member/Lead Tech, RediNet, prepared 
  statement......................................................    46
Taylor, Loris, President/CEO, Native Public Media, prepared 
  statement......................................................    41
Response to written questions submitted by Hon. Steve Daines to:
    Donald K Stockdale...........................................    52
    Andrew Von Ah................................................    48
Response to written questions submitted by Hon. Jon Tester to:
    Belinda Nelson...............................................    56
    Donald K Stockdale...........................................    53
    Kimball Sekaquaptewa.........................................    54
    Andrew Von Ah................................................    47
Response to written questions submitted by Hon. Tom Udall to 
  Donald K Stockdale.............................................    48

 
                    GAO REPORT ON TRIBAL ACCESS TO 
     SPECTRUM: PROMOTING COMMUNICATIONS SERVICES IN INDIAN COUNTRY

                              ----------                              


                     WEDNESDAY, SEPTEMBER 18, 2019


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
124, U.S. Capitol Building, Hon. John Hoeven, Chairman of the 
Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Good afternoon. I will call this hearing to 
order.
    Good afternoon. Thank you to our witnesses for being here.
    Today we will examine the last of three reports from the 
Government Accountability Office regarding broadband, internet 
and other telecommunications access on tribal land. Having the 
ability to readily access broadband furthers economic 
development, educational achievement and public health and 
safety. Unfortunately, tribal populations have lower levels of 
broadband access relative to others in the United States.
    Recognizing the need to address this problem, in 2016, 
Senators on this Committee sent a letter to the GAO Comptroller 
General seeking research and analysis in response to questions 
on the availability of high-speed internet access and other 
advanced telecommunications services on tribal lands. In 
particular, Senators asked for an analysis of three main 
topics.
    First, examine how the Federal Communications Commission 
collects, validates and uses information on broadband 
availability to create mapping data which is used to inform 
Federal agencies on locations where the need for improvement is 
the greatest.
    Second, analyze the experience tribes have had with public-
private partnerships that increase high-speed internet 
availability as well as funding barriers for programs 
administered by Rural Utilities Service within the Department 
of Agriculture.
    And, third, research the availability of wireless spectrum 
in Indian Country and the barriers tribes face in accessing 
licensed spectrum across Indian Country.
    The GAO has responded to the 2016 request letter in three 
separate reports. Today, the Committee will receive testimony 
on the content and recommendations in the third report on 
tribal access to spectrum. This report, entitled FCC Should 
Undertake Efforts to Better Promote Tribal Access to Spectrum, 
discusses, among other things, the lack of availability of 
licensed spectrum across Indian lands.
    The Committee is interested to hear from the GAO on what 
actions the FCC may take to prioritize tribal needs for 
licensed spectrum across tribal lands. More specifically, the 
Committee is eager to learn how the FCC can improve its 
training, technical assistance and consultation with tribal 
governments and organizations on spectrum-related matters.
    Further, the Committee is concerned about the availability 
of FCC data regarding unused licensed spectrum that exists over 
tribal lands. Making this information public and readily 
available would eliminate unnecessary steps tribes must take to 
obtain spectrum licenses. And that is a key piece we want to 
focus in on today.
    With that, I want to say to the witnesses, welcome, thanks 
for being here, thanks for testifying today. I want to thank 
the FCC for working with the Committee to schedule so we can 
have a meaningful hearing.
    I will now turn to our Vice Chairman, Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you so much, Chairman Hoeven, and 
thank you for calling today's hearing on tribal access to 
spectrum. I want to thank all the witnesses for being here and 
give a special welcome to Kimball Sekaquaptewa, Chief 
Technology Director at Santa Fe Indian School in my home State 
of New Mexico. Welcome, Kimball, and I am pleased you were able 
to join us today.
    Telecommunications is at the heart of many changes our 
Nation has seen in the last decade and access to fast, reliable 
and affordable broadband has changed the way people live, work 
and communicate. But too many tribal governments and their 
communities lack access to affordable, reliable broadband 
service, creating a barrier to participating in our modern 
economy, a barrier to harnessing their economic development 
potential.
    For instance, this tribal digital divide hinders tribal 
communities from developing online businesses, accessing 
telemedicine services, and using online educational tools. So I 
ask all of us today, are we doing enough? Let's start with some 
data provided by the FCC.
    In 2018, the FCC reported an estimated 35 percent of 
Americans living in tribal lands lacked access to broadband 
services. This compared to 8 percent of all Americans. In May 
of this year, the FCC reported that just 46 percent of housing 
units on rural tribal lands have access to fixed broadband 
service. And in New Mexico, as of 2016, only about 24 percent 
of residents living on tribal lands had broadband access.
    These statistics, as concerning as they are, likely do not 
capture the full scope of the tribal digital divide. We know 
this because the FCC itself has acknowledged that it relies on 
insufficient data, and is currently undergoing reforms to its 
data collection process.
    So it is inexplicable that the FCC's own broadband 
deployment report issued in May of this year found that 
broadband service is being provided to all Americans, including 
residents located on tribal lands in a ``reasonable and timely 
fashion.'' This finding not only closely misrepresents the 
well-documented digital divide facing tribal communities, it 
provides cover for the FCC to skirt its statutory obligation to 
take immediate action to accelerate deployment of advanced 
telecommunications capability in rural areas like much of 
Indian Country.
    Like many fellow members on this Committee, I co-sponsored 
the Broadband Data Act, a bipartisan bill that requires the FCC 
to improve its data collection relating to broadband. Because, 
simply put, better data equals better access. And for Indian 
Country in particular, that will result in better opportunities 
to pursue economic development on tribal lands.
    This Committee has examined the unique challenges to 
economic development on tribal trust lands. With today's 
hearing, we acknowledge that access to broadband is among those 
challenges.
    So in addressing the tribal digital divide, the FCC must 
view Indian tribes as partners, not constituents or customers. 
Yet, it appears, by its latest order scaling back tribal access 
that the agency is not doing enough, even though its own 
guidance expresses a commitment to promote a government-to-
government relationship with Indian tribes and engage in 
meaningful tribal consultation.
    After these orders were overturned on appeal, I am hopeful 
that the FCC has started to reevaluate not only how it 
interacts with Indian Tribes, but also how it listens to them.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Vice Chairman Udall.
    Do other members have an opening statement? All right, then 
we will proceed to our witnesses.
    First, we will hear from Mr. Andrew Von Ah, Director of 
physical Infrastructure Issues for the GAO. Thank you for being 
here. Mr. Don Stockdale will be next, Chief, Wireless 
Telecommunications Bureau, FCC. We appreciate your being here. 
Then Ms. Belinda Nelson, Chairperson Gila River 
Telecommunications, Chandler, Arizona. And Ms. Kimball 
Sekaquaptewa. She is the Chief Technology Director, Santa Fe 
Indian School, in Santa Fe, in the great State of New Mexico.
    Senator Udall. That is very good.
    The Chairman. Did I get that right?
    Senator Udall. Yes, absolutely.
    Mr. Von Ah, thanks for being here. Please go ahead.

        STATEMENT OF ANDREW VON AH, DIRECTOR, PHYSICAL 
            INFRASTRUCTURE ISSUES, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Mr. Von Ah. Chairman Hoeven, Vice Chairman Udall, members 
of the Committee, thank you for having me, and thank you for 
the opportunity to discuss our recent work on access to 
spectrum to deliver wireless broadband service in tribal lands.
    We have previously reported and testified on the 
difficulties of bringing broadband service to tribal lands. 
Where there is challenging terrain and low population 
densities, there are increased costs and reducing census for 
deployment of high-speed internet, particularly wireline 
technologies, which can be costly to install.
    Wireless technologies, however, can be cost effective in 
such areas, but access to spectrum and in particular, licensed 
spectrum, is key for tribal entities to be able to provide such 
service.
    My remarks today are based on our 2018 report for this 
Committee, which examined tribal entities' ability to obtain 
access to spectrum to provide broadband services, and FCC's 
efforts to promote and support their efforts in doing so. With 
respect to tribal entities' ability to obtain and access 
licensed spectrum, we have found that very few have been able 
to do so. A number of barriers hamper their efforts.
    In our analysis, we identified just 18 tribal entities that 
held active spectrum licenses and bands that can be used for 
broadband. While several tribal entities also provide broadband 
over unlicensed spectrum, there are limitations to using that 
spectrum in terms of interference and speed, and such spectrum 
is not an option for some tribal lands.
    Licensed spectrum offers better technical performance, as 
well as enhanced ability to deliver additional internet 
service, the ability to sell or lease spectrum for profit, 
additional opportunities to obtain Federal funding through the 
Universal Service Fund, which requires carriers to have access 
to licensed spectrum.
    Barriers for tribal entities to obtain licensed spectrum 
include the general lack of available licenses, the high cost 
of acquiring such spectrum at auction, which can cost millions 
of dollars, and difficulties obtaining license for unused 
spectrum over tribal lands through the secondary market. 
Specific challenges in access the secondary market include a 
lack of willing sellers, trouble identifying existing license 
holders, and a lack of clarity in how to pursue those 
transactions.
    To promote and support tribal access to licensed spectrum, 
we have found that the effectiveness of FCCs' actions has been 
somewhat limited. In particular, our report focused on 
information that FCC could make available to tribal entities to 
address some of the challenges associated with accessing those 
secondary markets. We found that, for example, FCC does not 
analyze the extent that unused licensed spectrum exists over 
tribal lands, or communicate information to tribes that could 
be beneficial to them in their efforts to obtain spectrum in 
the secondary market, such as, quite simply, who owns the 
unused spectrum.
    Accordingly, we made recommendations to FCC to analyze data 
to better understand the need for spectrum on tribal lands, and 
the extent that unused spectrum license exists. We also 
recommended that FCC make information on spectrum license 
holders more accessible and easier to understand, to promote 
tribal entities' ability to purchase or lease spectrum licenses 
from other providers.
    FCC agreed with our recommendations. In terms of collecting 
data, FCC said they would take and analyze a sample of spectrum 
licenses on tribal lands to inform its policies. FCC indicated 
that this analysis would be completed by the end of this year. 
FCC also pointed to a multi-year update of its universal 
licensing system, which, if any of you have used it, can be a 
little bit user unfriendly, that would provide easier access to 
information on spectrum license holders to interested parties. 
They have also highlighted recent and planned outreach to 
tribes where access to licensed spectrum was discussed.
    Also, in July of this year, as you well know, FCC finalized 
an order changing the use of the 2.5 gigahertz band of 
spectrum, which included a priority firing window for tribal 
entities to obtain licenses for unused portions of the band. 
While providing this priority access to the spectrum is 
certainly a step forward, this spectrum may not be available 
across some tribal lands, and there can be technical and other 
limitations in using this band to provide broadband services.
    Therefore, providing robust information to help enable 
secondary market transactions and greater access to unused 
spectrum over tribal lands remains a key challenge.
    Chairman Hoeven, Vice Chairman Udall, members of the 
Committee, thank you for this opportunity. I would be happy to 
address any questions you may have.
    [The prepared statement of Mr. Von Ah follows:]

Prepared Statement of Andrew Von Ah, Director, Physical Infrastructure 
             Issues, U.S. Government Accountability Office
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee:
    Thank you for the opportunity to discuss our November 2018 report 
on tribal access to and use of spectrum for broadband services. \1\ 
Broadband service on tribal lands continues to lag behind the rest of 
the country, especially on rural tribal lands. \2\ According to the 
Federal Communications Commission (FCC), this gap could hinder tribal 
efforts to promote self-governance, economic opportunity, education, 
public safety, and cultural preservation. In prior work, we found that 
one barrier to increasing broadband access on tribal lands is the cost 
of deploying infrastructure in areas with challenging terrain. \3\ 
However, broadband service can be delivered through wireless 
technologies using radio frequency spectrum, and according to FCC, such 
wireless technologies are more cost-effective for some remote and 
sparsely populated areas, such as tribal lands. \4\ In 2010, FCC 
reported that increasing tribal access to and use of spectrum would 
create additional opportunities to expand broadband service on tribal 
lands. \5\
---------------------------------------------------------------------------
    \1\ GAO, Tribal Broadband: FCC Should Undertake Efforts to Better 
Promote Tribal Access to Spectrum, GAO-19-75 (Washington, D.C.: Nov. 
14, 2018).
    \2\ In this testimony, the term ``tribal lands'' refers to any 
federally recognized Indian tribe's reservation, off-reservation trust 
lands, pueblo, or colony; land held in trust by the federal government 
for Indian(s); and Alaska Native regions established pursuant to the 
Alaska Native Claims Settlement Act, but do not include Oklahoma Tribal 
Statistical Areas.
    \3\ GAO, Telecommunications: Challenges to Assessing and Improving 
Telecommunications for Native Americans on Tribal Lands, GAO-06-189 
(Washington, D.C.: Jan. 11, 2006) and GAO, Telecommunications: 
Additional Coordination and Performance Measurement Needed for High-
Speed Internet Access Programs on Tribal Lands, GAO-16-222 (Washington, 
D.C.: Jan. 29, 2016).
    \4\ Congress has delegated responsibility for regulating commercial 
and other nonfederal spectrum use to FCC, and as part of its 
responsibilities, FCC assigns spectrum licenses, such as through 
auctions; oversees secondary market transactions; and promulgates 
regulations for the use of licensed and unlicensed spectrum. Regarding 
the secondary market, FCC's rules permit licensees to lease portions of 
their licensed spectrum rights to others.
    \5\ In March 2010, an FCC task force issued the National Broadband 
Plan that included a centralized vision for achieving affordability and 
maximizing use of high-speed Internet. See FCC, Connecting America: The 
National Broadband Plan (Washington, D.C.: 2010).
---------------------------------------------------------------------------
    My remarks today are based on the November 2018 report and selected 
updates and address (1) the ability of tribal governments and 
telecommunications providers, which we refer to as ``tribal entities,'' 
to obtain and access spectrum to provide broadband services on tribal 
lands and the reported barriers that may exist, and (2) the extent to 
which FCC promotes and supports tribal efforts to obtain and access 
spectrum for broadband services. For our report, we reviewed relevant 
statutes and regulations, FCC documents, \6\ and academic and 
government publications on spectrum-related issues on tribal lands. We 
analyzed FCC data on spectrum auction applicants and license holders as 
of September 6, 2018 and reviewed the list of federally recognized 
tribes published in the Federal Register. To obtain stakeholder views, 
we interviewed stakeholders, such as tribal associations, regional 
consortiums, private providers that deliver Internet services to tribal 
lands, industry associations, and companies that work with tribal 
entities. In addition, we interviewed 24 tribal entities--16 of which 
were using wireless technologies to provide Internet services--that we 
selected to include variation in terms of geographic location, level of 
broadband deployment, population size and density, and urban or rural 
distinction. Stakeholders were selected to represent a range of views 
and experience working with tribes and broadband service; their views 
are not generalizable. To assess FCC's efforts, we interviewed FCC 
officials and reviewed relevant FCC-rulemaking proceedings and related 
public comments, and compared FCC's actions against recommendations 
made in FCC's National Broadband Plan, \7\ FCC's current strategic 
plan, \8\ and federal internal control standards related to using 
quality information. \9\ For this testimony, we reviewed the status of 
related FCC rulemakings and contacted FCC about action FCC has taken in 
response to our recommendations. Further details on our scope and 
methodology are included in our report.
---------------------------------------------------------------------------
    \6\ These documents included the Statement of Policy on 
Establishing a Government-to-Government Relationships with Indian 
Tribes, Policy Statement, 16 FCC Rcd 4078 (2000).
    \7\ FCC, Connecting America: The National Broadband Plan 
(Washington, D.C.: 2010).
    \8\ FCC, Strategic Plan 2018-2022 (Washington, D.C.).
    \9\ GAO, Standards for Internal Control in the Federal Government, 
GAO-14-704G (Washington, D.C.: September 2014).
---------------------------------------------------------------------------
    We conducted the work on which this statement is based in 
accordance with generally accepted government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
Background
    Wireless broadband connects users to the Internet using spectrum to 
transmit data between the customer's location and the service 
provider's facility, and can be transmitted using fixed wireless and 
mobile technologies, as shown in figure 1.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Fixed wireless broadband technologies establish an Internet 
connection between fixed points--such as from a radio or antenna that 
may be mounted on a tower, to a stationary wireless device located at a 
home--and generally requires a direct line of sight. Mobile wireless 
broadband technologies also establish an Internet connection that 
requires the installation of antennas, but this technology provides 
connectivity to customers wherever they are covered by service, 
including while on the move, such as with a cell phone. Spectrum is the 
resource that makes wireless broadband connections possible. Spectrum 
frequency bands each have different characteristics that result in 
different levels of ability to cover distances, penetrate physical 
objects, and carry large amounts of information. Examples of some of 
the frequency bands that can be used by commercial and nonfederal 
entities for broadband services are shown in figure 2.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The frequency bands that can be used for broadband services are 
either licensed or unlicensed. For licensed spectrum, FCC can assign 
licenses through auctions, in which prospective users bid for the 
exclusive rights to transmit on a specific frequency band within 
geographic areas. Having exclusive rights ensures there will be no 
interference from other spectrum users in that band. License holders 
may sell or lease their license, in whole or in part, to another 
provider, a process that is known as a secondary market transaction, 
with FCC's approval. FCC has assigned licenses administratively in two 
frequency bands that can be used for broadband services. \10\
---------------------------------------------------------------------------
    \10\ Prior to 1996, FCC assigned licenses for exclusive use in the 
Educational Broadband Service (2496-2690 MHz), which FCC allocated to 
qualifying educational institutions and government organizations for 
the transmission of educational materials. In addition, from 2005 to 
2015, FCC assigned non-exclusive nationwide licenses in the 3650-3700 
MHz band, where use of the band may be shared by other license holders.
---------------------------------------------------------------------------
    FCC also authorizes the use of unlicensed spectrum, where an 
unlimited number of users can share frequencies without a license, such 
as wireless microphones, baby monitors, and garage door openers. In 
contrast to users of licensed spectrum, unlicensed users have no 
regulatory protection from interference by other licensed or unlicensed 
users in the bands. \11\
---------------------------------------------------------------------------
    \11\ While there are no regulatory protections against interference 
for users of unlicensed spectrum, FCC has certification rules and 
standardized protocols that help to mitigate interference, and users 
must accept any interference caused by all compliant devices in these 
bands.
---------------------------------------------------------------------------
    In March 2010, FCC issued the National Broadband Plan that included 
a centralized vision for achieving affordability and maximizing use of 
high-speed Internet. \12\ The plan made recommendations to FCC, 
including that FCC should take into account the unique spectrum needs 
of tribal communities when implementing spectrum policies and evaluate 
its policies and rules to address obstacles to spectrum access by 
tribal communities. With regard to tribal lands, the plan recommended 
that FCC increase its commitment to government-to-government 
consultation with tribal leaders and consider increasing tribal 
representation in telecommunications planning. FCC established the 
Office of Native Affairs and Policy in July 2010 to promote the 
deployment and adoption of communication services and technologies to 
all native communities, by, among other things, ensuring consultation 
with tribal governments pursuant to FCC policy.
---------------------------------------------------------------------------
    \12\ FCC, Connecting America: The National Broadband Plan 
(Washington, D.C.: 2010).
---------------------------------------------------------------------------
Few Tribal Entities Had Obtained Licensed Spectrum and Face Barriers 
        Doing So
    For our November 2018 report, we identified 18 tribal entities from 
FCC's license data that held active spectrum licenses in bands that can 
be used to provide broadband services as of September 2018. \13\ Of 
those 18, 4 obtained the spectrum through a secondary market 
transaction and 2 from an FCC spectrum auction. \14\
---------------------------------------------------------------------------
    \13\ To identify tribal entities, we reviewed the list of federally 
recognized tribes published in the Federal Register, identified search 
terms related to these tribes, and manually matched these search terms 
and FCC data on license holders. Because tribal entities may hold 
spectrum licenses under names that did not include the search terms we 
identified, there may be additional tribal entities that we did not 
include in our analysis. As of September 2018, there were over 27,000 
active spectrum licenses held by over 4,400 licensees.
    \14\ We found 13 tribal entities had obtained a license through FCC 
administrative assignment, which, as described above, FCC also has the 
authority to do. One of these 13 tribal entities also held a license 
obtained through a secondary market transaction.
---------------------------------------------------------------------------
    We interviewed 16 tribal entities that were using wireless 
technologies at the time to provide service, and 14 told us that they 
were accessing unlicensed spectrum to do so. While representatives from 
most of the 16 tribal entities reported some advantages of unlicensed 
spectrum, such as the spectrum is available at no cost, they also 
discussed their experiences with the limitations of unlicensed 
spectrum, including issues with interference and speed or capacity. 
Some of the stakeholders we contacted and FCC have highlighted the 
importance of exclusive-use licensed spectrum for tribal entities. For 
example, FCC's Office of Native Affairs and Policy reported in 2012 
that unlicensed spectrum is not an option across all tribal lands and 
that tribal access to robust licensed spectrum is a critical need. \15\ 
In addition, representatives from the stakeholders we interviewed told 
us that there are non-technological benefits for tribal entities to 
obtain greater access to licensed spectrum, including:
---------------------------------------------------------------------------
    \15\ FCC's Office of Native Affairs and Policy, 2012 Annual Report, 
(Washington, D.C.).

---------------------------------------------------------------------------
  <bullet> enhanced ability to deliver additional Internet services,

  <bullet> enhanced ability to sell or lease spectrum for profit, and

  <bullet> additional opportunities to obtain federal funding that 
        requires entities to hold or have access to licensed spectrum.

    Furthermore, two tribal stakeholders and representatives from 
several tribal entities told us that having access to licensed spectrum 
would enable tribes to exercise their rights to sovereignty and self-
determination. For example, representatives from four of the tribal 
entities told us that having access to licensed spectrum would ensure 
that spectrum is being used in a way that aligns with tribal goals and 
community needs, further supporting their rights to self-determination.
    In our November 2018 report, we described barriers tribal entities 
reported facing in accessing licensed spectrum. First, representatives 
from tribal entities we contacted said that obtaining a spectrum 
license through an auction was too expensive for many tribal entities. 
Indeed, over 60 percent (983 of 1,611) of the winning bids from a 2015 
spectrum auction were more than $1 million. Representatives from some 
tribal entities told us they were unable to obtain financing to 
participate in auctions because tribal governments cannot use tribal 
lands as collateral to obtain loans and that participating in spectrum 
auctions requires auction-specific expertise that tribal entities may 
not have.
    Second, tribal entities reported facing barriers obtaining spectrum 
through secondary market transactions. Most of the spectrum allocated 
for commercial use has already been assigned through spectrum auctions 
and other mechanisms to private providers that may not be providing 
service on tribal lands. As such, there may be tribal areas where 
providers hold licenses for bands but are not using the spectrum to 
provide Internet service. All three of the tribal associations we 
contacted confirmed that there were unused spectrum licenses over 
tribal lands, and representatives from a nationwide provider indicated 
that they only deploy services if there is a business case to support 
doing so. Accordingly, the secondary market is one of few avenues 
available to tribal entities that would like to access licensed 
spectrum. However, representatives from tribal entities we contacted 
told us it could be challenging to participate in the secondary market 
because there is a lack of willing sellers, license holders are not 
easily identified, and tribal entities may not be aware of how to 
pursue secondary market transactions. For example, representatives from 
a tribal entity that had been successful in obtaining a license through 
the secondary market told us that an Indian-owned telecommunications 
consulting company was pivotal in identifying the license holder and 
facilitating the transaction, and without such assistance, the 
transaction would not have occurred.
FCC Had Taken Some Actions to Increase Access, but Does Not Collect or 
        Communicate Key Spectrum-Related Information to Tribal Entities
    At the time of our November 2018 report, we found that FCC had 
taken some actions to increase tribal access to spectrum. In 
particular:

  <bullet> FCC issued a proposed rulemaking in March 2011 that sought 
        comments on three proposals to create new spectrum access 
        opportunities for tribal entities (see fig. 3). \16\ As of July 
        12, 2019, FCC had not adopted new rules or taken further action 
        on the 2011 rulemaking.
---------------------------------------------------------------------------
    \16\ In the Matter of Improving Communications Services for Native 
Nations by Promoting Greater Utilization of Spectrum over Tribal Lands, 
Notice of Proposed Rulemaking 26 FCC Rcd 2623 (2011). The 2011 proposed 
rulemaking included other proposals not related to enhancing tribal 
access to spectrum but rather to incentivize build-out in tribal areas 
by license holders, such as making modifications to the Tribal Lands 
Bidding Credit Program and creating Construction Safe Harbor 
provisions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


  <bullet> FCC issued a proposed rulemaking in May 2018 \17\ that 
        sought comment on establishing a priority window for tribal 
        nations located in rural areas to obtain a license in the 
        Educational Broadband Service spectrum band (also known as the 
        2.5 GHz band). \18\ In the proposed rulemaking, FCC had found 
        that significant portions of this band were not being used, 
        primarily in rural areas. FCC had not finalized this rule at 
        the time of our November 2018 report, but published a draft 
        order in June 2019 that would establish a priority filing 
        window so that tribal entities could get access to unassigned 
        spectrum in the 2.5 GHz band on rural tribal lands prior to an 
        FCC auction. FCC adopted this order on July 10, 2019. \19\
---------------------------------------------------------------------------
    \17\ In the Matter of Transforming the 2.5 GHz Band, Notice of 
Proposed Rulemaking, WT Docket No. 18-120 (2018).
    \18\ According to FCC, the tribal priority window will enable 
tribal entities an opportunity to obtain unassigned 2.5 GHz licenses to 
provide service on rural tribal lands; this window will be followed 
immediately by a system of competitive bidding. As described above, FCC 
previously assigned licenses for exclusive use in the Educational 
Broadband Service band (2496-2690 MHz).
    \19\ In the Matter of Transforming the 2.5 GHz Band, Report and 
Order, FCC 19-62 (2019).

  <bullet> FCC's Office of Native Affairs and Policy conducts training, 
        consultation, and outreach to tribal entities on spectrum-
        related issues, such as communicating with tribal entities 
        prior to FCC auctions or when FCC regulatory actions or 
        policies would affect tribal governments and spectrum over 
---------------------------------------------------------------------------
        their lands.

    FCC's 2010 National Broadband Plan stated that ongoing measurement 
of spectrum utilization should be developed to better understand how 
spectrum resources are being used because some studies indicated that 
spectrum goes unused in many places much of the time. The plan stated 
that any spectrum utilization studies that FCC conducts should identify 
tribal lands as distinct entities. The plan also stated that FCC should 
make data available that would promote a robust secondary market for 
spectrum licenses, such as information on how and to whom spectrum is 
allocated on tribal lands. \20\ In FCC's 2018 strategic plan, FCC 
stated that it will implement ongoing initiatives that will assist in 
spectrum policy planning and decisionmaking, promote a robust secondary 
market in spectrum, and improve communications services in all areas of 
the United States, including tribal areas. \21\ Additionally, federal 
internal control standards state that agencies should use quality 
information, including information that is complete, to inform the 
decisionmaking processes and communicate with external entities. \22\ 
Tribal governments are an example of such external entities.
---------------------------------------------------------------------------
    \20\ FCC, Connecting America: The National Broadband Plan 
(Washington, D.C.: 2010).
    \21\ FCC, Strategic Plan 2018-2022 (Washington, D.C.).
    \22\ GAO, Standards for Internal Control in the Federal Government, 
GAO-14-704G (Washington, D.C.: September 2014).
---------------------------------------------------------------------------
    However, in our 2018 report, we found that FCC had not consistently 
collected data related to tribal access to spectrum or communicated 
important information to tribes. In particular:

  <bullet> FCC did not collect data on whether spectrum license-holders 
        or auction applicants are tribal entities. Without this 
        information, FCC did not have a comprehensive understanding of 
        the extent that tribal entities are attempting to obtain or 
        access licensed spectrum or have been successful at obtaining 
        and accessing it.

  <bullet> FCC did not analyze the extent that unused licensed spectrum 
        exists over tribal lands, even though FCC had the information--
        broadband availability data from providers and information on 
        geographic areas covered by spectrum licenses--needed for such 
        an analysis. Although FCC officials told us evaluating the 
        effectiveness of FCC's secondary market policies is a way to 
        increase the use of unused spectrum, FCC's approach did not 
        include an analysis of unused spectrum licenses on tribal 
        lands. As a result, FCC's evaluations of the secondary market 
        may not have accurately reflected how its policies affect 
        tribal entities. Because the secondary market is one of few 
        ways for tribal entities to access licensed spectrum, such an 
        assessment would enable FCC to better promote a robust 
        secondary market that provides opportunities for tribes to 
        access spectrum.

  <bullet> FCC did not communicate information to tribes that could 
        benefit them in their efforts to obtain spectrum in the 
        secondary market. As described earlier, the secondary market is 
        a significant mechanism for tribal entities to obtain spectrum 
        licenses, but representatives from the tribal entities we 
        interviewed reported challenges related to participating in the 
        secondary market, such as not knowing whom to contact should 
        they wish to engage in a secondary market transaction to obtain 
        a spectrum license.

    We concluded that FCC's efforts to promote and support tribal 
entities' access to spectrum had done little to increase tribal use of 
spectrum. In particular, FCC lacked information that could help inform 
its decision-making processes related to spectrum policy planning, 
which is intended to improve communications services in all areas of 
the United States, including tribal lands. By collecting data on the 
extent that tribal entities are obtaining and accessing spectrum, FCC 
could better understand tribal spectrum issues and use this information 
as it implements ongoing spectrum initiatives. Furthermore, the ability 
of tribal governments to make informed spectrum planning decisions and 
to participate in secondary market transactions is diminished without 
information from FCC on the spectrum transactions that occur over 
tribal lands. Providing this information directly to tribal entities 
could enable them to enter into leasing, partnership, or other 
arrangements to obtain spectrum. In our November 2018 report, we 
recommended that FCC (1) collect data on the extent that tribal 
entities are obtaining and accessing spectrum and use this information 
as FCC implements ongoing spectrum initiatives; (2) analyze data to 
better understand the extent that unused spectrum licenses exist over 
tribal lands, such as by analyzing the data for a sample of tribal 
lands, and as appropriate use this information to inform its oversight 
of the secondary market; and (3) make information on spectrum-license 
holders more accessible and easy to understand for interested parties, 
including tribal entities, to promote their ability to purchase or 
lease spectrum licenses from other providers. FCC agreed with these 
recommendations and described the actions it plans to take to implement 
them. For example, according to FCC, it will consider ways to collect 
data on the extent to which tribal entities are obtaining and accessing 
spectrum; analyze data from a sample of spectrum licenses on tribal 
lands to inform FCC's spectrum policies; and transition to a more user-
friendly system for its licensing data.
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee, 
this concludes my prepared statement. I would be pleased to respond to 
any questions that you may have.

    The Chairman. Thank you. Mr. Stockdale?

         STATEMENT OF DONALD K. STOCKDALE, JR., CHIEF, 
          WIRELESS TELECOMMUNICATIONS BUREAU, FEDERAL 
                   COMMUNICATIONS COMMISSION

    Mr. Stockdale. Chairman Hoeven, Vice Chairman Udall, and 
members of the Committee, thank you for the opportunity to 
testify today regarding the GAO report on the FCC's efforts to 
promote tribal access to spectrum.
    Chairman Pai's top priority has been to close the digital 
divide and bring the benefits of the internet to all Americans, 
particularly those in rural areas and on rural tribal lands. 
Because spectrum is critical those efforts, Chairman Pai has 
made access to low-, mid-, and high-frequency spectrum a key 
element of his 5G FAST Plan.
    Tribal nations face unique and significant obstacles to 
offering service in rural tribal areas. The commission 
recognizes that it needs to work in close collaboration and 
consultation with tribal nations to overcome these obstacles.
    Making mid-band spectrum available for advanced wireless 
services, including 5G, provides a critical opportunity to 
address those challenges, because of its good coverage and 
capacity characteristics. Chairman Pai has sought not only to 
make mid-band spectrum available for advanced wireless services 
generally, but also to identify specific opportunities for 
rural tribal nations to obtain access to this spectrum.
    That is why the commission recently took the unprecedented 
action to prioritize access to the 2.5 gigahertz band for 
tribal nations. In July, the commission adopted rules to make 
this spectrum available for wireless use across the Country, 
and particularly in rural tribal areas.
    Specifically, the commission established its first ever 
priority window for rural tribal nations to obtain flexible use 
spectrum for free, before any auction takes place. We expect to 
open the rural tribal priority window early next year and we 
are planning a number of outreach efforts over the coming 
months.
    The commission also has adopted a novel dynamic sharing 
framework for the 3.5 gigahertz band that will offer a key 
opportunity for deployment on rural tribal lands. That 
framework will provide tribal entities with two ways to access 
the spectrum. They can bid on licenses at auction, or they can 
rely on opportunistic access in areas where there is limited 
commercial interest.
    The commission additionally promotes deployment in tribal 
areas by adopting tribal land bidding credits in its auction 
rules, such as in its recent auctions of 24 and 28 gigahertz 
bands, and its upcoming auctions of the 37, 39 and 47 gigahertz 
bands and 2.5 and 3.5 gigahertz bands.
    Yet, despite these efforts, the commission recognizes there 
is more to be done. The commission is trying to respond to the 
recommendations of the GAO report. First, the GAO recommended 
that the FCC collect date on the extent to which tribal 
entities are accessing spectrum, and to use this information in 
its ongoing spectrum initiatives. The commission is analyzing 
the extent to which bidding credit information provides insight 
into tribal entities' access, and it also plans to use data 
generated by the 2.5 gigahertz priority window.
    Second, the GAO recommended the FCC analyze data to better 
understand the extent that that unused spectrum licenses exist 
over tribal lands. FCC staff, pursuant to the GAO 
recommendation, are currently developing a sample of spectrum 
licenses on tribal lands, which will then be analyzed to inform 
ongoing spectrum policies. This report should be completed by 
the end of the year.
    Third, the GAO recommended that the FCC make information on 
spectrum license holders more accessible and easier to 
understand. The FCC's universal licensing system is currently 
available to tribal entities and other members of the public, 
but as the GAO noted, it may not be the most user-friendly. The 
commission therefore is currently engaged in a multi-year 
project to modernize its complex licensing systems which, among 
other things, should make it more user-friendly. In the 
meantime, commission staff are ready to help tribal nations 
access and navigate ULS.
    Chairman Hoeven, Vice Chairman Udall and members of the 
Committee, thank you once again for the opportunity to testify, 
and I look forward to the opportunity to answer your questions.
    [The prepared statement of Mr. Stockdale follows:]

    Prepared Statement of Donald K. Stockdale, Jr., Chief, Wireless 
      Telecommunications Bureau, Federal Communications Commission
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee, 
thank you for the opportunity to testify today regarding the GAO report 
on the Federal Communication Commission's (Commission or FCC) efforts 
to promote Tribal access to spectrum.
    Chairman Pai's top priority has been to close the digital divide 
and bring the benefits of the Internet to all Americans, particularly 
those in rural areas and on rural Tribal Lands. Radiofrequency (RF) 
spectrum is crucial to narrowing the digital divide on Tribal Lands. 
That's why a key component of the Chairman's 5G FAST Plan--a 
comprehensive strategy to Facilitate America's Superiority in 5G 
Technology--is making spectrum available in low-, mid-, and high-
frequency bands to facilitate deployment of advanced wireless services 
to all Americans.
    Tribal Nations face unique and significant obstacles to offering 
service in rural Tribal areas, even when compared to rural non-Tribal 
lands. Many Tribal areas have characteristics that increase the cost of 
deployment and of providing service, including challenging terrain, low 
population density, jurisdictional issues involving states and 
sovereign Tribal governments, and the absence of necessary 
infrastructure. At the same time, the expected revenues in Tribal areas 
tend to be lower, in part due to a smaller number of business 
customers. The Commission recognizes the need to work in close 
collaboration with Tribal Nations as well as non-Tribal stakeholders, 
to overcome these barriers and ensure that no one who lives in Indian 
country is on the wrong side of the digital divide.
    Making mid-band spectrum available for advanced wireless services, 
including 5G, provides a critical opportunity to address the need for 
wireless broadband in rural and Tribal areas. Mid-band spectrum offers 
a desirable combination of coverage and capacity for wireless services. 
In recent years, the demand for mid-band spectrum has increased 
dramatically worldwide, as more countries have realized that this 
spectrum has characteristics that will be useful for 5G deployments. 
Under Chairman Pai's leadership, the Commission has sought not only to 
make mid-band spectrum available for 5G generally, but also to identify 
specific opportunities for rural Tribal Nations to obtain access to 
this spectrum.
    For example, the Commission recently took action to prioritize 
access to the 2.5 GHz band for Tribal Nations to provide advanced 
wireless services, including 5G, to rural Tribal Lands. The 2.5 GHz 
band, the largest contiguous block of spectrum below 3 GHz, is 
dramatically underused today, particularly in rural and Tribal areas. 
Existing licenses cover only about half of the geography of the United 
States, and much of the band is not even assigned across swaths of the 
country west of the Mississippi River. The Commission, at its July 10, 
2019 meeting, acted to change that by replacing an outdated regulatory 
framework governing this band with new rules and procedures that will 
make this spectrum available for advanced wireless services across the 
country, and particularly in Tribal areas. Specifically, the 
Commission, for the first time ever, established a priority window for 
flexible-use licenses for rural Tribal Nations to obtain spectrum for 
free--before any auction of the spectrum--to enable Tribal Nations to 
address communication needs on rural Tribal Lands. This is a 
groundbreaking measure that demonstrates the Commission's commitment to 
expanding Tribal Nations' ability to access spectrum. The Commission 
will open the priority window for 2.5 GHz spectrum early next year, and 
Commission staff outreach to Tribes is already underway, including an 
August 20 workshop in Billings, Montana and an upcoming panel at the 
Department of the Interior's National Tribal Broadband Summit.
    The Commission also has established a framework to access 
additional mid-band spectrum, specifically in the 3.5 GHz band, which 
should provide opportunities for a variety of rural and remote 
communities, as well as wireless providers that seek to serve them. The 
Citizens Broadband Radio Service is a novel, three-tiered access and 
authorization framework to accommodate shared federal and non-federal 
use of the 3550-3700 MHz band. Access and operations are managed by 
automated frequency coordinators, known as Spectrum Access Systems. The 
Commission will vote later this month to seek comment on bidding 
procedures for an auction of Priority Access Licenses (PALs) in the 
3550-3650 MHz band. PALs are 10-year, county-based licenses of 10-
megahertz channel blocks that receive protection from General 
Authorized Access (GAA) users. The GAA tier, in turn, is licensed-by-
rule to permit access to the 3550-3700 MHz band, with at least 80 
megahertz in any given license area available to potential GAA users 
and not available to PAL users. The 3.5 GHz band's opportunistic access 
regime and smaller geographic license areas provide low-cost entry 
points to mid-band spectrum and another key opportunity for deployment 
of advanced wireless services to Tribal entities.
    Under this framework, Tribal entities will have two ways to access 
this spectrum. They can gain GAA access to spectrum in areas where 
there is no commercial buildout, or they can seek PAL licenses in the 
auction, utilizing Tribal Land bidding credits and other bidding 
credits.
    Tribal Land bidding credits are another example of how the 
Commission promotes the deployment of spectrum-based services to Tribal 
Lands through its auction rules. The Commission has adopted Tribal Land 
bidding credits for many spectrum auctions. For example, the Commission 
awarded credits for 20 licenses in the 600 MHz auction, and winning 
bidders have applied for Tribal Land bidding credits in the recent 24 
GHz and 28 GHz auctions, in a total of 13 pending license applications. 
Also, the Commission has adopted Tribal Land bidding credits in the 
upcoming mid-band spectrum auctions of the 2.5 GHz and 3.5 GHz bands 
and the high-band spectrum auction of 37 GHz, 39 GHz, and 47 GHz bands. 
The Tribal Land bidding credit program provides the opportunity for 
spectrum auction winners to obtain a discount (in the form of a refund) 
for providing service to qualifying Tribal Lands. To qualify for the 
credit, the winning bidder must demonstrate that it will serve 
qualifying Tribal Lands, provide certifications from the applicable 
Tribal government, and attest that it will construct and operate a 
system capable of serving 75 percent of the qualifying Tribal Land 
population within three years of license grant.
    The Commission recognizes that many Tribal entities can benefit 
from additional information, outreach, coordination, and assistance in 
meeting the communications needs of their communities. The Commission's 
Office of Native Affairs and Policy (ONAP) provides a home for 
dedicated Commission staff with specialized experience to serve as 
official Commission liaisons for ongoing consultation, engagement, and 
outreach to the American Indian, Alaska Native Village, Hawaiian 
Homelands, and other Native communities. Most importantly, ONAP fosters 
Commission dialogue and engagement with Tribes, Tribal governments, and 
inter-Tribal organizations, furthers the Commission's trust 
relationship with Tribal Nations, and demonstrates the Commission's 
ongoing commitment to its 2000 Tribal Policy Statement. \1\ In addition 
to emails and calls to provide technical assistance to individual 
Tribes, ONAP participated in 23 events and gatherings with tribes since 
2018, with several more planned before the end of this year. Finally, 
last year the FCC renewed its Native Nations Communications Task Force. 
The Task Force is comprised of elected or appointed leaders from 
federally recognized Tribal governments and senior Commission staff. It 
provides the Commission with guidance on such matters as identifying 
barriers to broadband deployment unique to Tribal Lands and ensuring 
that Tribal concerns are considered in all Commission proceedings 
related to broadband and other Commission undertakings that affect 
Tribal interests. \2\
---------------------------------------------------------------------------
    \1\ Establishing a Government-to-Government Relationship with 
Indian Tribes, Policy Statement, 16 FCC Rcd 4078 (2000).
    \2\ Public Notice, FCC Seeks Nominations for Tribal Government 
Representatives to Serve on Renewed FCC Native Nations Communications 
Task Force (DA 18-127) (rel. Feb. 8, 2018).
---------------------------------------------------------------------------
    Yet, despite our best efforts, we recognize there is more work to 
be done. In November 2018, the GAO released a report on spectrum use by 
Tribal entities. Even before the Commission's decision to adopt a 
Tribal priority window for 2.5 GHz spectrum, that report noted that the 
``FCC has taken steps to promote and support Tribal access to 
spectrum,'' but nevertheless offered three recommendations to improve 
access to spectrum on Tribal Lands. The Commission continues to work to 
implement the report's recommendations.
    First, GAO recommended that the FCC should collect data on the 
extent to which Tribal entities are obtaining and accessing spectrum 
and use this information as the FCC implements ongoing spectrum 
initiatives. The FCC collects information on licensees to determine 
eligibility to hold a particular license, but because eligibility 
generally is not based on Tribal entity status, the FCC has not 
required reporting of Tribal entity status for every license. The 
Commission is analyzing the extent to which bidding credit information 
provides insight into Tribal entities' access to, and use of, spectrum. 
And, of course, the Commission will collect information on rural Tribal 
entities in the context of the 2.5 GHz priority window. Further, as the 
Commission creates new application forms or revises existing forms, it 
will consider whether to add the option for the applicant to 
voluntarily identify itself as a ``tribal entity.''
    Second, GAO recommended that the FCC ``should analyze data to 
better understand the extent that unused spectrum licenses exist over 
Tribal Lands, such as by analyzing the data for a sample of Tribal 
Lands, and as appropriate use this information to inform its oversight 
of the secondary market.'' Staff from the FCC's Office of Economics and 
Analytics and Wireless Telecommunications Bureau (WTB) are currently 
developing a sample of spectrum licenses on Tribal Lands, which will 
then be analyzed to inform ongoing spectrum policies.
    Third, GAO recommended that the FCC make information on spectrum 
license holders more accessible and easier to understand for interested 
parties, including Tribal entities, to promote their ability to 
purchase or lease spectrum licenses from other providers. The FCC's 
Universal Licensing System (ULS) is available to Tribal entities and 
other members of the public. The Commission is currently engaged in a 
multi-year project to modernize ULS, transitioning to a new platform 
that will provide more consistent performance, easier access to 
information, and enhanced functionality. This modernization work will 
take time, as ULS is a complex system that issues and maintains over 
2.2 million wireless licenses and processes over 400,000 applications 
annually. GAO's recommendation that the Commission make information on 
spectrum license holders more accessible and understandable is in 
alignment with the Commission's goals for a modernized ULS.
    In the meantime, the Commission has provided Tribes with 
information about, and assistance in, accessing ULS. The Commission 
provided information about opportunities to access spectrum through new 
licenses as well as through partitioning, disaggregating, and leasing 
existing licenses. The Commission has provided this information at FCC 
Tribal Workshops, and in presentations at inter-Tribal events. Examples 
include inter-Tribal meetings and FCC workshops in Washington, DC in 
February and March of 2019, in Mescalero, New Mexico in April 2019, in 
Ada and Norman, Oklahoma in May and June 2019, respectively, in 
Spokane, Washington in May 2019, and in Billings, Montana in August 
2019. ONAP and WTB staff are also planning and conducting extensive 
outreach regarding the Tribal Priority Window for access to 2.5 GHz 
spectrum, including holding several Tribal workshops, proving on-line 
tutorials, and providing assistance on how to complete the forms 
necessary to apply for spectrum during the priority window. Both ONAP 
and WTB staff are always available to assist any individual Tribe that 
has questions or requests assistance accessing information through ULS.
    Chairman Hoeven, Vice Chairman Udall, and the Members of the 
Committee, thank you once again for the opportunity to testify this 
afternoon, and I look forward to the opportunity to answer your 
questions.

    The Chairman. Thank you. I would like to turn to Senator 
McSally for purposes of an introduction.
    Senator McSally. Thank you, Chairman Hoeven. Our third 
witness is Ms. Belinda Nelson, who is the Chairperson for the 
Gila River Telecommunications, Inc., out of Arizona. It was 
great to meet with her yesterday and visit with her a little 
bit, and we are honored to have you here representing Arizona, 
and representing Gila River.
    The Chairman. Senator McSally, if you wouldn't mind, 
because of the votes, the Vice Chairman is going to have to go 
vote, and he would like to hear his New Mexico constituent 
testify. Ms. Nelson, would you be willing to defer?
    Ms. Nelson. Yes, Mr. Chairman.
    The Chairman. Okay, you can proceed, with your indulgence, 
thank you.

 STATEMENT OF KIMBALL SEKAQUAPTEWA, CHIEF TECHNOLOGY DIRECTOR, 
                     SANTA FE INDIAN SCHOOL

    Ms. Sekaquaptewa. My name is Kimball Sekaquaptewa. I come 
here today from the Santa Fe Indian School, which is owned and 
operated by the 19 Pueblos of New Mexico. As an off reservation 
boarding school, maintaining community connections is 
essential. How perfect would video conferencing be to connect 
our students with their native language instructors back at 
home? We thought so five years ago after we solved the digital 
divide in Santa Fe by bringing high-speed internet to our 
campus in the State capital.
    However, we were quickly put in place when we realized that 
the tribes were too slow to talk back, to communicate using 
two-way video conferencing technology. In fact, at that time, 
at Pueblo Cochiti, the entire government and the public library 
were sharing a single copper T-1 line, a 1.5-megabit 
connection, which is a fraction of my phone .
    In the past four years, we have worked with six of our 
Pueblo tribes to be their own solution to the digital divide. 
Through the use of the FCC Schools and Libraries program, we 
built two middle mile fiber optic networks, connecting two 
tribal schools and six tribal libraries. The libraries serve as 
computing centers in our communities, when the homes don't have 
computers and when those computers don't have internet 
connections.
    Through our efforts, we cracked the code to connectivity by 
learning how to construct a fiber optic network. Since then the 
tribes have self-invested to build a second network that can 
connect beyond schools and libraries. We have begun to 
construct tribally owned cell towers. In the past, the tribes 
were paid a small fee for the land lease. By owning the cell 
tower, tribes can work directly with the carriers to realize 
the profit from the device traffic and the fiber back-call, 
resulting in a new income stream that has minimal environmental 
impact on our natural resources.
    Adding to new Native capabilities, tribally controlled 
towers can result in access to the FirstNet public safety 
network, which utilizes AT&T, which unfortunately is very 
limited in the Pueblos. I give the shout-out to FirstNet to 
come to us and to work with the tribes.
    But the primary goal of the towers is to increase cell 
phone coverage for tribal members. We can do this by providing 
more choices of carriers, but we can also hang our own wireless 
infrastructure, whether through traditional fixed wireless, or 
as we have tested lately, the use of spectrum.
    At the Santa Fe Indian School, seniors are assigned 
tablets. We use an online portal to submit homework. However, 
when those students return to their home communities, these 
internet-dependent devices become paperweights. In fact, in a 
meeting with graduating seniors this spring, we learned that 
despite having a tablet, the number one choice for essay 
writing was to use the notes app on their phone and essentially 
text out a paper. They prefer their cell phones because they 
have the internet to upload the assignments. And they are less 
filtering from the school.
    If we want our graduates to be on part with mainstream 
America, there is an expectation to write a research paper 
replete with citations. That is not possible when they are 
writing with their thumbs. We must address home connectivity to 
help our students, learn, grow and compete.
    SFIS has been working with our tribes to test different 
technologies. First, we set up the 4G LTE network in one of our 
pueblos with the help of a non-profit and a higher education 
institution, who agreed to let us use their EBS license to test 
the viability of the spectrum. Our challenge is that almost all 
of the EBS spectrum near Albuquerque and Santa Fe is already 
licensed. We set up the LTE network from de-boxing to 
connectivity in just a few hours. We spent the last 14 months 
since then navigating the regulatory process.
    Presently there are six attorneys working to license, sub-
lease or partner for connectivity. The network is currently 
offline while we work through the legal. We appreciate the 
strong education partners, but the institutions themselves have 
long ago sub-leased to a national carrier and a spectrum 
speculator who are not using it.
    We will continue to try to use the EBS spectrum that is 
within our reach. But it feels like drops from a faucet instead 
of the opening of a floodgate.
    Without the day to day support of the non-profit, we would 
likely not be in the fight. They have provided financial 
support for specialized EBS attorneys, engineers, and all that 
is involved to navigate the FCC ULS data set.
    Through those efforts, they provided maps, the short list 
of license holders, and their holdings. It is only at that 
point that we could pick up the telephone and know who to call 
to gain access to the airwaves over our land.
    We also learned that in addition to EBS, we need CBRS, also 
a mid-range frequency. With the goal to serve every tribal 
home, the multi-pronged strategy is required because of the 
limitations of the different frequency types with respect to 
range, speed and penetration.
    The draft rules were proposed last week. Do we have the 
bank to win against the highest bidder? Or might a different 
tribal priority help us to serve on our own lands? Thus 
participating in the FCC rulemaking, ideally through 
government-to-government relations, will add to our work 
effort.
    Acquiring access to spectrum also brings ancillary 
challenges with new opportunities with respect to the 
reconnect. Because a provider bid on our census tracts under 
the CAF II auction and was awarded our lands without our 
knowledge, then as tribes we are not able to apply for 
reconnect on our own. This winter, when we contacted them, they 
told us that they plan to use CBRS but that our lands weren't 
even on their scheduled network upgrade schedule. So while they 
are not planning to build out, we are ready to build out, and 
we are ready to use the same technology as them, yet the rules 
prohibit us from doing so.
    My question would be, and what I really want to know is, 
why don't tribes have access, sovereign access, to the airwaves 
over our lands, just as we do for other natural resources, such 
as water? In the global digital economy, the airwaves are 
essential elements to communicate, and frankly, to survive.
    I come today as a newcomer to the spectrum landscape. The 
pueblos that we worked with to build the LTE networks are not 
gaming tribes, they are small, rural communities trying to do a 
solid. And despite not having an IT department, we successfully 
deployed a 4G LTE network. Our growing pains exist, but do not 
negate the fact that we are crossing the digital divide through 
our own capabilities that we have developed to self-govern in 
the digital age.
    Our people are students, nieces and nephews, traditional 
ways of life, and the ability to thrive in our rural lands are 
our return on investment.
    Thank you, Chairman, Vice Chairman and members.
    [The prepared statement of Ms. Sekaquaptewa follows:]

Prepared Statement of Kimball Sekaquaptewa, Chief Technology Director, 
                         Santa Fe Indian School
    I come here today from the Santa Fe Indian School, which is owned 
and operated by the 19 Pueblos of New Mexico. As an off-reservation 
boarding school, maintaining community connections and providing 
culturally-relevant curriculum requires close and constant contact with 
our communities. How perfect is video-conferencing for distance 
learning to connect students with their native language instructors 
back at home? We thought so five years ago after SFIS was finally able 
to bring fiber optic Internet to our campus in downtown Santa Fe, the 
state capitol. However, we were quickly put in place, when we reached 
out to the Pueblos and realized that the majority of their Internet 
connections were too slow to talk back. At this time, the entire 
government of Cochiti and the public library shared a 1.5 Mbps copper 
T-1 line. And when you called the service provider for more slow 
expensive Internet, we were told that all the copper was used up and 
that there were no options. Five years later the copper is still 
exhausted in our area--there is no change. Further challenging our 
situation, is the fact that not all of the tribes have IT Departments 
to install and maintain network equipment. Expensive managed service 
contracts provide help desk but not strategic management. With the 
epiphany that we are always stronger together, we rolled up our sleeves 
to get to work.
    For the past four years, we have worked with six of our Pueblo 
tribes to be their own solution to the digital divide. Through the use 
of the FCC Schools and Libraries E-rate program, we built two middle 
mile fiber optic networks, connecting two tribal schools and six tribal 
libraries. The tribal libraries are located in the heart of the 
community and when most homes don't have computers and those computers 
don't have Internet connections, the libraries serve as computing 
centers for the community. So much so that after the library closes, 
cars pull up in the parking lot to connect to the Wi-Fi that bleeds out 
of the building. Post E-rate special construction, our schools and 
libraries connect at speeds over 3000 percent faster and over 90 
percent cheaper than before. These two projects were the largest E-rate 
awards in New Mexico in 2016 and the only tribal projects of their kind 
since the E-rate Modernization order.
    Through our efforts, we cracked the code to connectivity by 
learning how to construct a fiber optic network. To complete this 
project, we were supported by our Governors and Tribal Councils, who 
were educated along the way. Since then the tribes have self-invested 
to build a second network that can connect beyond schools and 
libraries. Admittedly, the learning curve was steep but now when we 
meet, tribal leadership brings new ideas. For instance, we are 
constructing tribally owned cell towers. In the past, the tribes were 
paid a small fee for a land lease. By owning the cell tower, tribes can 
work directly with the carriers to realize the profit from the device 
traffic and fiber backhaul, resulting in a new income stream that has 
minimal environmental impact on our natural resources. But the primary 
goal of the towers is to first increase cell phone coverage for tribal 
members given the poor service in heart of some communities. We can do 
this by providing more choices from carriers but we also have the 
potential to hang our own wireless infrastructure to provide Internet 
access off our fiber optic backbone, whether through traditional fixed 
wireless, or as we have tested lately--spectrum.
    Adding new native capabilities, tribally controlled towers will 
also result in increased access to the FirstNet public safety network, 
which utilizes the AT&T network. Unfortunately, at this time AT&T 
coverage is extremely limited in the Pueblos and thus it is unknown how 
FirstNet can improve first responder communication--or our health in an 
emergency. I give this shout out to FirstNet to reach out and work with 
tribes.
    Tribal leadership has also expressed a priority need to provide 
residential Internet access. At the Santa Fe Indian School, seniors are 
assigned tablets. We use an online portal for student email, group 
collaborations, and to submit homework. However, when the students 
return to their home communities, these Internet-dependent devices 
become paperweights. At best, students can tether the Internet from 
their cell phones but those are expensive connections with limited 
data--and as much as we'd like to report that they save their data for 
their homework, entertainment and social networking often win. In fact, 
in a meeting with graduating seniors in the spring we learned that 
despite having the tablets, the number one choice for essay writing was 
to use the Notes application on their phones to essentially text out a 
paper. The reason for cell phone preference has a lot to due to with 
the availability of Internet access. They uploaded their assignments 
from their phones. If we want our graduates to be on par with 
mainstream America, the expectation to write a research paper replete 
with citations is an important skill--that is not possible when they 
are writing their papers with their thumbs! Our solution is provide 
home or bus Internet, and fill the Homework Gap as we have learned to 
know it, to help our student learn, grow and compete. And while we want 
them to go to college, we also want them back. We want them to return 
as professionals and skilled workers to bring economic security for 
themselves, improve overall community well-being as participating 
tribal members, and to retain vitality in the Pueblos and all rural 
America. Skilled American workers with proud rural roots with a 
commitment to stay, make small towns thrive. Instead of the urban 
centers taking our talent resulting in a brain drain, let's bring the 
digital economy to our hometowns.
    To do this, the Santa Fe Indian School has been working with our 
tribes to test ways to provide broadband connectivity for students. And 
that brings me to what I can share about spectrum. We did it- we set up 
a 4G LTE network in one of our Pueblos with the help of a non-profit 
and the higher education institution who agreed to let us use their EBS 
license to test the viability of the spectrum for educational access. 
Our challenge is that almost of all the EBS spectrum near Albuquerque 
and Santa Fe is already licensed. We set up the LTE network from de-
boxing to connectivity in a few hours. We have since spent fourteen 
months, navigating the regulatory process. Presently, there are six 
attorneys working to license, sublease, or partner for connectivity. 
Today the network is down while work through legal issues. While we 
appreciate the strong higher education partnerships willing to work 
towards quid pro quo broadband benefits, our results utilizing EBS in 
the 2.5 Mhz frequency will always be limited in our region. The higher 
education institutions have long ago subleased to a national carrier 
and a spectrum speculator. We continue to increase our access to the 
EBS spectrum within our reach but it feels like drops from a faucet 
instead of the opening of a flood gate.
    In my experience deploying an 4G LTE network, the technology is not 
the hard part. The hardest part to navigate the spectrum use. We do 
have choice spectrum above us but it sub-leased to outside entities who 
are not using it. So we work through the legal processes for rights of 
use. Additionally, without the day-to-day support of the non-profit, we 
would likely not still be in the fight. They have provided financial 
support for specialized EBS attorneys, engineers, and all that is 
involved to navigate the FCC ULS data set. Through those efforts, they 
provided maps and the short list of license holder names, along with 
their holdings. Only at that point could we pick up the phone and know 
who to call. It should not be this hard to find out who is in control 
of the airwaves over our own land.
    I am happy that the FCC created the EBS Tribal Priority Window for 
tribal governments and organizations to claim unlicensed EBS spectrum. 
The use of spectrum for rural deployments offers great potential. I 
worry that without the technical assistance to educate and help 
navigate the licensing process that not enough tribes will succeed. The 
Tribal Priority window, whose start date is not yet announced will only 
provide sixty days to apply. And despite the priority window, tribes 
have faster network buildout requirements than an auction winner. And 
if we can't meet these buildout requirements? Perhaps they go back to 
auction. Why do tribes have half the time to build out more of the 
network than the carriers? I have to wonder if this is an oversight or 
a system that is set up for tribal failure?
    I come to you today as newcomer to the spectrum landscape. The 
Pueblos that we work with to build LTE networks are not gaming tribes. 
They are small rural communities trying to do a solid. And despite not 
having an IT Department, we successfully deployed a 4G LTE network. In 
this limited experience, I have learned that we need more than EBS to 
meet our bandwidth goals. So then our plans shift to is to also use 
CBRS, also a mid-range frequency. To do so we'll need to learn a new 
set of complex rules--and work with a new set of specialized attorneys. 
Draft rules were proposed last week for a 2020 auction for CBRS 
Priority Access Licenses. Do we have the bank to win against higher 
bidders or might a different tribal priority help us serve our own 
lands? Thus, participating in FCC rulemaking, ideally in through 
Government-to-Government relations is also added to the work effort.
    With the goal to serve every tribal home, the multi-prong strategy 
is required because of the limitations of the different frequency 
types. Mid-range frequencies such as EBS and CBRS offer a balance 
between total bandwidth throughput (speed), increased range, and the 
ability do a better job penetrating walls or trees. The TV Whitespace 
is a lower frequency technology and is often proposed in the most rural 
of locations because it can travel long distance with high penetration 
but only delivers limited speeds. The 5G revolution promises faster 
speeds but currently requires fiber transport and small cell antennas 
that are very close together--which can exacerbate the permitting 
challenges to build on tribal land.
    Acquiring access to spectrum also brings ancillary challenges with 
FCC and USDA program rules. The USDA released the ReConnect opportunity 
for rural connectivity. However, some of our tribes were not able to 
apply for the USDA Reconnect program because there is a rule that if 
the census tract was awarded in the FCC CAF II auction, then it is not 
eligible for ReConnect support. Unfortunately, a provider was awarded 
CAF II funding in many of the Pueblos but did so without consulting the 
tribes. In communication with the provider, the future and yet 
unscheduled deployment would utilize CBRS spectrum. I mentioned that we 
built a fiber optic transport network. We are ready to deploy last mile 
services but the ineligibility of our census tracts limits our tribal 
efforts to build out the network. How can a third party get financial 
support to connect tribal lands without ever consulting the tribal 
government? Where is the integrity in the tribal engagement process? I 
stress tribal engagement as the key to working in Indian Country. 
Instead of making tribal lands barriers to long haul fiber routes, 
engage the tribe to create partnerships to provide local access.
    But what I really want to know why tribes don't have sovereign 
access to the airwaves, just as we do for other natural resources on 
our lands, such as water? In the global digital economy, the airwaves 
are essential elements to communicate and frankly, to survive. Among 
other things public safety, or lack thereof, transpires over the 
availability of reliable, real-time communication. If tribes had 
authority or safe harbor from legal suit to use the not used but 
licensed by third party EBS spectrum on our lands, instead of fourteen 
months in legal, we could be delivering enhanced public safety 
capabilities, instead of still setting up the network.
    If we speak are talking about real time, as I was writing these 
comments, I receive a text from my sister-in-law in the Pueblo, 
``Haleigh as swamped with homework but the Internet has been down here 
at the house. Is it possible for her to use your Internet to get this 
work done? Not sure what else to do besides dropping her off at 
McDonald's to use WiFi''. We live forty minutes from a McDonalds. We 
told our niece to seek a college degree, which she is trying to do in 
Nursing. And then to encouraged her to bring those skills back to serve 
the community. But without appropriate Internet access, why does she 
become optional? An acceptable casualty on an inaccurate coverage map 
that alleges that we are served when we are not? As we have learned 
through our efforts, broadband connectivity is too big to solve as a 
school, as a tribe, or as a rural community but that working as 
collaborators, we can and have built the networks that the market said 
didn't have the return on investment. Our growing pains exist but do 
not negate the fact that we are crossing the digital divide through the 
capacities that we have developed to self-govern in the digital age. 
Our people, our students, our children, nieces and nephews, traditional 
ways of life, and the ability to thrive in our rural lands is our 
return on investment. Thank you.

    The Chairman. Thank you, Ms. Sekaquaptewa.
    Ms. Nelson, again, thanks for waiting.

     STATEMENT OF BELINDA NELSON, CHAIRPERSON, GILA RIVER 
                    TELECOMMUNICATIONS, INC.

    Ms. Nelson. Chairman Hoeven, Vice Chairman Udall, we would 
like to let the Vice Chairman know and members of the Committee 
know that we appreciate the opportunity to testify on behalf of 
Gila River Telecommunications on promoting better access to 
spectrum on tribal lands.
    I also want to thank, again, Vice Chairman Udall for his 
work over the last 11 years to promote broadband access on 
tribal lands. He has been a great advocate for us.
    I want to focus today on a few areas GRTI believes could 
help tribal residents gain greater access to wireless 
broadband. These include greater access to licensed spectrum, 
auctioning spectrum with smaller geographic license areas, 
secondary market licensing, reforms to the Tribal Bidding 
Credit, ``build or divest'' mechanisms, and tribal 
consultation. All of these proposals demonstrate a need for 
policy makers to redouble their efforts.
    I have the honor of serving as the chairperson for GRTI, 
which is wholly owned by the Gila River Indian Community, home 
to the Akimel O'otham and the Pee-Posh Tribes. Our reservation 
is approximately 372,000 acres and is home to almost 12,000 of 
our more than 20,000 members.
    When we first purchased the exchange from Mountain Bell in 
1988, only 10 percent of our residents had access to basic 
phone service. Those looking to get connected had to pay tens 
of thousands of dollars for a party line connection.
    Today, GRTI offers phone service to 100 percent of our 
residents and 84 percent subscribe. We offer high quality 
broadband service and continue to deploy our fixed network.
    As this Committee is well aware, tribal lands are the least 
served areas in our Country. The FCC is in the process of 
updating the data collection use to understand where broadband 
is not available. But current data shows that approximately 54 
percent of tribal lands lack access to broadband speeds of 25/
3, compared to only 27 percent of non-tribal lands. More 
accurate numbers would likely reveal an even greater gap.
    The problems that make tribal lands generally uneconomic to 
serve, such as low population density, high poverty, and rugged 
terrain, are well-known by this Committee. These issues present 
challenges regardless of the technology used, which is why it 
is important for policy makers to consider tribal lands' unique 
challenges when crafting policies.
    Unlicensed spectrum is an essential part of the mix of 
spectrum options. But given some of its limitations, such as 
interference requirements, licensed spectrum must be made more 
readily available to tribal entities. The GAO report 
demonstrates there are very few tribal entities that currently 
hold such licensed spectrum.
    GRTI commends the FCC's decision to open a Tribal Priority 
window in the 2.5 gigahertz spectrum band, though we believe 
the opportunity could be better publicized. We also hope the 
FCC considers this a pilot program and considers opening tribal 
priority window and feature options.
    Regarding geographic license, GRTI supports auctioning 
spectrum with more discrete geographic areas, so more tribal 
entities can participate. As it did in the 2.5 gigahertz 
proceeding, the commission should identify service areas, like 
reservations, as the licensed area. This encourages 
participation by tribes and other tribal entities.
    Secondary market opportunities could greatly enhance access 
to licensed spectrum. Allowing for a more structured process by 
which tribal areas are partitioned from the licensee service 
area would allow underserved tribes an opportunity to meet 
their broadband needs. This is currently allowed under the 
FCC's rules, but as the GAO report demonstrates, the current 
rules are not sufficient.
    Another step the FCC could take is reforming its Tribal 
Lands Bidding Credit policy, which provides a credit to the 
amount bid if the winning bidder commits to building out on 
tribal lands. Better coordination up front between the entity 
bidding and the tribal government could help make this a more 
utilized credit.
    While it may seem radical at first, a build or divest 
proposal is consistent with the longstanding FCC practice. 
Licensees can often meet build-out obligations without serving 
tribal lands within their licensed area. Instead of leaving 
these lands stranded without service, the FCC should, as it 
would with a failure to build out under any license, require 
the licensee to either build our or begin a divestment 
proceeding.
    The FCC has authority to pursue all of these proposals 
right now, but it seems to lack the will to pursue them. GAO 
notes, ``FCC officials told us they have reviewed public 
comments to the proposed rulemaking, but have no current plans 
to take further action.'' This is a very disappointing dose of 
reality.
    Finally, consultation remains vital in getting policies for 
tribal areas right. Over the years, GRTI has worked with the 
FCC to address many concerns with its policies. At times, this 
dialogue has been meaningful and engaging. At other times, it 
has been after the fact and harmful.
    I commend Chairman Pai and many of his fellow commissioners 
who have taken steps to address our concerns. Congress charged 
the agency with ensuring access to communication services for 
all people. And robust consultation can help us all work 
together to achieve that directive.
    I appreciate the opportunity to speak with you today, and 
look forward to your questions. Thank you.
    [The prepared statement of Ms. Nelson follows:]

     Prepared Statement of Belinda Nelson, Chairperson, Gila River 
                        Telecommunications, Inc.
    Chairman Hoeven, Vice Chairman Udall and members of the Committee 
thank you for the opportunity to testify on behalf of the Gila River 
Telecommunications on the important topic of promoting better access to 
spectrum on Tribal lands by the FCC. Before I start, I also want to 
thank Vice Chairman Udall for his work over the last 11 years to 
promote broadband access on Tribal lands through his work on this 
Committee and the Commerce Committee. You have been a great advocate 
for addressing the needs of Indian Country and we very much appreciate 
all you have done and continue to do. Chairman Hoeven and Vice Chairman 
Udall and all members of the Committee, I also want to thank you for 
requesting that the Government Accountability Office provide the 
spectrum report that is the subject of this hearing.
    In my testimony today, I want to focus on a few areas that GRTI 
believes could help Tribal residents gain greater access to wireless 
broadband. These include:

        1. Greater access to licensed spectrum;
        2. Auctioning spectrum with smaller geographic license areas;
        3. Secondary market licensing;
        4. Reforms to the Tribal Bidding Credit; and
        5. ``Build or divest'' mechanisms.

    There are other reforms that the FCC, the National Broadband Plan, 
the GAO and others have acknowledged over the years that could be 
helpful in closing the broadband canyon that exists on Tribal lands. 
Underlying all of these proposals is a need for policymakers to re-
double their efforts, perform meaningful Tribal consultation, and adopt 
changes.
GRTI
    I want to briefly provide an overview of Gila River 
Telecommunications, which we refer to as GRTI. I have the honor of 
serving as the Chairperson for GRTI, which was founded in 1988 and is 
wholly owned by the Gila River Indian Community. Our reservation is 
approximately 372,000 acres. We have more than 20,000 members, and 
almost 12,000 people living on our reservation. When we first purchased 
the exchange from Mountain Bell in 1988, only 10 percent of our 
residents had access to basic phone service and those looking to get 
``connected'' had to pay tens of thousands of dollars before Mountain 
Bell would install a party line connection.
    Today, GRTI offers phone service to 100 percent of our residents 
and 84 percent of the residents subscribe. We also offer high quality 
broadband service and are continuing to deploy our fixed network. That 
fixed network also offers backhaul connectivity for wireless services 
that are available in the Community. We are very proud of GRTI's 
success and work everyday to ensure it continues.
Challenges to Broadband Deployment on Tribal Lands
    As this Committee is well aware, Tribal lands are the least served 
areas in the country. How severe is the gap? That is currently unclear 
as the Commission is in the process of updating that data collection 
used to understand where broadband is not available. With that caveat, 
what the FCC data shows is that approximately 54 percent of Tribal 
lands lack access to broadband at speeds of 25/3, whereas only 27 
percent of non-Tribal lands lack such access to broadband at those 
speeds. That is a significant difference and more accurate numbers 
would likely reveal an even greater gap.
    The problems that make tribal lands generally ``uneconomic to 
serve'' are well-known by this Committee: low population density, low 
median income, high rates of poverty, rugged and difficult terrains, 
and regulatory obstacles such as multi agency approval for constructing 
communications facilities. These issues present challenges regardless 
of the technology used, which is why it is important for policymakers 
to consider the unique challenges on tribal lands when they are 
crafting policies. And that is what I will now turn to.
Licensed Spectrum Opportunities
    As the GAO rightly identifies, there is a difference between 
licensed and unlicensed spectrum. Unlicensed spectrum is an essential 
part of the mix of spectrum options, but given some of its limitations, 
such as interference requirements, licensed spectrum must be made more 
readily available to tribal entities. The GAO reports demonstrates 
there are very few tribal entities that currently hold such licensed 
spectrum. Based on their search of the FCC's licensing database, only 
18 tribal entities hold such licenses, of which the Gila River Indian 
Community is one. The data is shocking as there are 573 federally-
recognized tribes in the U.S. Even more staggering is the fact that 
that there are 4,400 licensees, meaning tribal entities represent 0.4 
percent of all licensees. These data point to a clear problem and 
evidence that more must be done.
    GRTI commends the FCC's decision this past summer to open a 
``Tribal Priority'' window in the 2.5 GHz spectrum band. That decision 
should provide a broad array of tribal entities an opportunity to 
acquire licensed spectrum that can be used to provide their communities 
5G broadband services. We look forward to the Commission providing 
additional details on this opportunity in the coming months and we hope 
that the FCC considers this a ``pilot program'' and gives consideration 
to opening Tribal Priority windows in future auctions as well. But more 
remains to be done.
    Geographic License. Specifically, GRTI supports auctioning spectrum 
with more discrete geographic areas so more tribal entities can 
participate. As it did in the 2.5 GHz proceeding, the Commission should 
identify service areas, like reservations, as the licensed area. This 
will encourage greater participation as it will allow Tribes and other 
tribal entities a more-tailored license area focused on meeting the 
needs of their tribal community.
    Secondary Markets. Additionally, GAO noted in its report that 
respondents stated secondary market opportunities could greatly enhance 
access to licensed spectrum. Allowing for a more structured process by 
which tribal areas are partitioned from the licensee's service area 
would allow unserved and underserved Tribes an opportunity to meet 
their broadband needs. This is currently allowed under the FCC's rules, 
but as the GAO Report demonstrates, the rules are not sufficient. GAO 
reports that only four (4) tribal entities have entered into secondary 
market agreements. This market-based solution needs rigorous backing by 
the FCC to move forward and we would urge this Committee to encourage 
the FCC to takes steps to promote and encourage negotiations between 
licensees and tribal entities in unserved/underserved to advance these 
agreements.
    Tribal Lands Bidding Credit. Another step the FCC could take would 
be reforming its Tribal Lands Bidding Credit policy. That policy 
provides a credit to the amount bid if the winning bidder commits to 
building out on tribal lands. The amount of the credits is tied to the 
amount of the winning bid and the winning bidder must buildout to 75 
percent of the tribal population within three years. Better 
coordination upfront between the entity bidding and the tribal 
government could help make this a more utilized credit.
    Build or Divest. Another proposal that may at first seem radical 
but is consistent with longstanding FCC practice is a ``build or 
divest'' proposal. This proposal would require licensees to either 
build out their network to serve the tribal communities within their 
licensed area or divest that portion of their license. At the root of 
this problem is the fact that licensees can often meet their buildout 
obligations without serving the tribal lands within their licensed 
area. Instead of leaving these tribal lands stranded without service 
because the licensee has no need, no economic incentive, and no 
interest in building out to the tribal area, the FCC should, as it 
would with a failure to build out under any license, require the 
licensee to either buildout or begin a divestment proceeding. The FCC 
could establish safeguards to ensure the intent of the licensee is 
fully understood, but those safeguards should also ensure that the 
needs of the tribal community are met.
    All of these proposals are ones that the FCC has the authority to 
pursue right now. What seems lacking is a will to pursue them. In fact, 
most of the above proposals are the subject of an open proceeding 
initiated by the FCC in 2011. As GAO notes in its report on page 21 
``FCC officials told us they have reviewed public comments to the 
proposed rulemaking, but have no current plans to take further 
action.'' This is a very disappointing dose of reality for our 
communities and one this committee should take notice of, as it will 
lead to tribal communities across the nation falling further behind in 
achieving broadband, which only further exacerbates the economic and 
cultural hardships we face.
    Tribal Consultation. One final note on an always important 
component of addressing tribal needs--consultation. Over the years GRTI 
has worked with the FCC at all levels of the agency, including meeting 
with the Chairman, the commissioners, the bureaus and with ONAP to 
address many concerns it has had with Commission policies. At times the 
dialogue with the agency has been meaningful and engaging. At other 
times, it has been after-the-fact and harmful to our efforts to bring 
communications services to our tribal community. I would say that 
Chairman Pai and many of his fellow commissioners have heard our 
concerns and have taken concrete steps to address them. We very much 
appreciate their willingness to hear us, but consultation with tribes, 
which the FCC committed to in 2001, remains vital to getting the 
policies for tribal areas right. We trust the FCC will continue to 
engage with all tribal communities to fix the broadband access canyons 
that exist on tribal lands. Congress charged the agency with ensuring 
access to communications services for all people. Robust consultation 
can help us all work together to achieve that Congressional directive.
Conclusion
    I appreciate the opportunity to speak with you today, and hope to 
be an ongoing resource for the Committee. Thank you.

    The Chairman. Thank you, Ms. Nelson.
    We will start with questions. My first question to you, Mr. 
Von Ah, is what is the number one thing that the FCC can do to 
help tribes, help Indian Country with access to spectrum? What 
is the number one thing they can do?
    Mr. Von Ah. According to our report, we really focused on 
the access to secondary markets. There is a lot of unused 
spectrum out there. There is maybe unwilling sellers, there are 
transaction costs, there are other things that hinder that 
market from functioning well. Just simply knowing who has the 
unused spectrum, how to go about those kinds of transactions.
    So I think that is one area where more incentives for use 
of the secondary markets, information about those markets, can 
be a big help.
    The Chairman. Mr. Stockdale, how do you accomplish that?
    Mr. Stockdale. Mr. Chairman, one of the ways that we can 
improve access to the secondary market is to improve 
information. In that regard, we are currently in the process of 
trying to modernize our universal licensing system, that is the 
system that currently contains over 4 million licenses, and we 
process about 400,000 licenses each year.
    This is going to be a multi-year effort to modernize it, 
but the goal is to come up with a more robust, more flexible 
and more user-friendly system that will permit both tribal 
nations and other members of the public to access the system 
and identify who holds spectrum licenses.
    The Chairman. That is good. That is to the benefit of 
everybody, right?
    Mr. Stockdale. It is.
    The Chairman. What specifically are you doing in Indian 
Country?
    Mr. Stockdale. With respect to Indian Country, we have in 
the past and continue to have a series of workshops and 
meetings with tribal nations to help them navigate the ULS 
system. And we have one to one contacts ready to answer any 
questions they have concerning how to access the system and how 
to identify current spectrum holders.
    The Chairman. So I would ask Ms. Nelson, first, how can FCC 
specifically help accomplish what they just described, enabling 
you to understand how to access more spectrum? In simple terms.
    Ms. Nelson. Senator, I believe first of all tribal 
consultation and outreach is key. Because many tribes across 
the Country do not receive this information in advance, in 
order to know what opportunities are presented to them.
    As I mentioned earlier, notification to tribes would allow 
them to decide on their particular reservation what resources 
they have, what training they have, sacred sites, there needs 
to be consultation to that effect.
    The Chairman. Mr. Stockdale, are you engaging in ways to do 
that?
    Mr. Stockdale. Through ONAP and with staff in our own 
Wireless Bureau, we have consulted with and we are setting up 
consultations with various tribal nations through workshops and 
other means, in which we are trying to first, help them 
navigate ULS, but also, and I think this is very important, we 
are trying to prepare them for the upcoming tribal window for 
2.5 gigahertz. We believe this provides a great opportunity for 
tribal nations to gain access to mid-band spectrum, which is 
particularly well-suited for advanced wireless services, 
including 5G. We want to make sure that any tribe that is 
interested in gaining some access knows how to do so.
    The Chairman. Ms. SK, same question. Simple terms. How can 
FCC be most helpful in accessing spectrum in Indian Country?
    Ms. Sekaquaptewa. I go back to the information to give us a 
report, maps, visualization, rather than the complicated 
spreadsheet that we have to parse, showing us who owns it and 
what they own, so then we can talk to them and seek a sublease 
or access the secondary market.
    However, I don't know that that that is the end of the 
story, just in terms of what we would need to do then. With the 
secondary market, what we found in our experience is, the 
carrier will let us have it conditionally. The school let us 
use it, if it doesn't infringe too much on what their 
educational programs are. So then we take this big risk of 
building out these networks or making these investments with 
these terms that are uncertain for our future and for the 
sustainability of the service or the sustainability of the 
network.
    The Chairman. Right. So, Mr. Von Ah, how much longer can 
unlicensed spectrum continue to be used in Indian Country with 
reliability, and do you have recommendations how to fix that or 
address that, that goes to exactly what she just said?
    Mr. Von Ah. I think unlicensed spectrum has limitations. 
Certainly, we heard that from all of the tribal entities that 
we spoke with. But they use what they can. Whatever is 
available, if there is equipment available, we are going to try 
to use it to create the best service that we can.
    The Chairman. How can the FCC, in simple, direct terms, get 
them the understanding so they know how to try to access 
spectrum? What is the clearest path to get that done?
    Mr. Von Ah. Part of it is perhaps some of the requirements 
around using some of that unlicensed spectrum could be made 
clear. Again, it is difficult to say exactly what they can do. 
We have talked about a number of things.
    The Chairman. So information on what is available, and then 
maybe some information on how to access it, is that a fair 
statement?
    Mr. Von Ah. That would be a fair statement.
    The Chairman. Mr. Stockdale, could you respond to that?
    Mr. Stockdale. Mr. Chairman, as I indicated, we are trying 
to modernize ULS so as to make it easier for tribal nations and 
others to determine what is available. In the meantime, we have 
staff ready to assist tribal nations and the public to identify 
and learn who possesses licenses with respect to particular 
bands in particular areas.
    We also have staff ready to assist tribal nations in trying 
to gain access to spectrum, whether it is through new licenses 
or assisting them in learning the possibilities to obtain 
licenses through the secondary market, through partitioning or 
disaggregation, or through leasing.
    The Chairman. Thank you. Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you. Thank you all for being 
here. This is such an important topic for all of us, including 
in Nevada. We have many rural communities, particularly our 
tribal communities, that are challenged just to get broadband 
to our communities.
    So let me open this up to the panel, because here is what I 
am hearing and what I have seen. So there are various 
government programs that are designed to bring broadband to our 
underserved communities. There is the USDA programs, there is 
the universal service program at the FCC. According to the GAO 
report, USF has programs such as the mobility fund and the 
tribal mobility fund.
    Given that these opportunities are connected, I think it is 
important that all of these resources are being effectively 
coordinated by the Federal Government. That is why in April, I 
introduced the Access Broadband Act. The Act itself will 
establish a coordinating office at the NTIA for all Federal 
broadband programs, because I think it is important, we are 
here just for that reason, that we are not only recording it at 
the Federal level, but we are getting that information into the 
communities that need it most.
    So can you talk about issues or any issues with current 
levels of coordination that you see between spectrum allocation 
in existing broadband programs and how do these issues play 
into the broader broadband mapping issues we have? We are 
hearing some of that. And also let me finally say, do you think 
that type of coordination that I just talked about is necessary 
and will be helpful to address all of the concerns that you 
have identified? And then more of the concerns that we are 
hearing today.
    So let me open it up to the panel.
    Mr. Von Ah. Also, we do have some ongoing work where we are 
looking at those programs specifically, all of the programs 
that are designed to get broadband out to rural and underserved 
areas. We will be commenting on some of those coordination 
issues in our forthcoming report.
    As far as those funds that you mentioned related to tribal 
lands, one thing I will mention is that tribal entities that 
are trying to provide service on their lands are often not able 
to access those funds, for particularly, the tribal mobility 
fund. They need to be an eligible communications carrier. There 
are only 11 tribes as of the time of our report that have that 
designation. And even so, they may not actually get the bid. I 
think there were two of the ETCs that were tribal entities who 
bid for the tribal mobility fund phase one, and neither one of 
them got the actual bid.
    So there are challenges simply for the tribal entities to 
access the funds that you mentioned.
    Senator Cortez Masto. Thank you.
    Mr. Stockdale. Senator, I think the idea of coordinating 
information about various funds is extremely useful and 
important. At the FCC, we recognize that one of the most 
important roles is in terms of trying to consult with tribal 
nations, so that they have the information they need to gain 
access to spectrum, or alternatively, to seek support where 
additional support is needed to construct deployment.
    In that regard, I would like to mention that while there 
have been, unlicensed spectrum has been mentioned today, and 
some of the disadvantages identified, there is also the 3.5 
gigahertz band, which is a licensed by rural band, which in 
rural areas may provide significant opportunities to tribal 
nations in part because it can be utilized at higher power 
levels than unlicensed bands.
    So this is one of the bands we also think that we need to 
try to inform tribal nations about, so that they are aware of 
the opportunities and can take advantage of it.
    Senator Cortez Masto. And let me ask you, when you were 
talking about that new band, the 3.5, are there going to be 
barriers or challenges for tribal communities to access and be 
able to utilize it? Because the concerns we are hearing are 
there are still barriers.
    Mr. Stockdale. Thank you for that question, Senator, it is 
a very good one. The 3.5 gigahertz band is somewhat unique in 
the sense that the commission adopted a hierarchical licensing 
scheme in which there are three levels of priority.
    The highest level is for the incumbent licensees, which are 
primarily military radars. Then there will be priority access 
licenses which will be auctioned off at county levels. And then 
there is general authorized access, which can operate whenever 
any of the higher priorities aren't operating, and moreover, 
there will be 50 megahertz reserved for this GAA use at all 
times.
    Senator Cortez Masto. So where do our tribal communities 
come in in all those categories you just identified?
    Mr. Stockdale. They could come in and bid for a PAL 
license, in which case they will be able to take advantage of 
the tribal land bidding credit. And if they also qualify for 
either the rural provider credit or the small entity provider 
credit, they can get credit for that. Or alternatively, they 
can try to provide service under GAA. And in rural, tribal 
areas, where there is no commercial use, that might be a very 
useful way to enter.
    Senator Cortez Masto. So for purposes of our 
representatives in tribal community, does that even make sense 
to you? Is that helpful? I mean, what I am hearing now is just 
that the user-friendliness is not there, and that is the 
biggest challenge to access and knowing that the funds are even 
available and accessing them.
    I am just curious.
    Ms. Nelson. Senator, thank you for the question, your 
initial comment about some coordination among seemingly these 
silos of Federal agencies and regulatory barriers that are 
created as a result of the silos that tribes must navigate to 
even get information. With regard to user-friendly websites, 
that is a good start. I think tribes are faced with just even 
getting basic information from any agency.
    Working with the FCC, I believe that the Office of Native 
Affairs and Policy, ONAP, is doing the best they can to 
outreach to tribes. I would encourage them to go out to actual 
Indian Country, rather than at conferences, where tribes travel 
to them. But I know they are doing the best they can.
    But regulatory barriers are something that is a tremendous 
task to undertake, for tribes to even understand, much less on 
the perspective of 573 federally recognized tribes. We have 
approximately 11 tribal telcos. So that speaks to itself, that 
there are tribes out there that are creating ways to provide 
for their own. There are many tribes that are deploying fiber 
to create broadband. By any means they can, they are very 
creative and they are getting the job done. Not necessarily 
becoming a recognized ETC through the Federal Communications 
Commission.
    So tribes are resourceful and they work with what 
information they can. But it is very frustrating for them to 
try to work within the regulatory barriers that are created by 
agencies, and then the silos of agencies. So I think some type 
of coordination, perhaps this Committee, other committees, some 
statute to relieve some of those silos for better coordination.
    Senator Cortez Masto. Thank you.
    Senator Udall. [Presiding.] Thank you. Senator Daines?

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Ranking Member Udall.
    Mr. Von Ah, I first want to thank you for including the 
Fort Belknap Indian Community as part of the GAO report that we 
are discussing here today. The FCC estimates that 45 percent of 
Montana's tribal areas still lack broadband access. That is 
unacceptable. Montana is often overlooked out here in a place 
like D.C., and it is especially true of our rural areas and 
tribal communities like Fort Belknap. We must take actionable 
steps to improve opportunity for these very underserved areas 
that are hamstrung by substandard wireless as well as broadband 
connections.
    I spent 12 years in the technology sector in Montana; saw 
first-hand the ability, the power of technology to remove 
geography as a constraint to opportunity. Access to broadband 
is not a luxury anymore. It is essential for accessing, whether 
it is a good-paying job, whether it is health care, whether it 
is just tying into this global economy.
    That is why I joined my colleagues here to urge GAO to 
study this problem and identify solutions, so Congress can act, 
and act in the right manner. While much work remains to be 
done, these findings have identified areas for improvement, so 
we can better connect to Indian Country.
    According to this report, tribes are often excluded during 
spectrum auctions because license sizes are too large, too 
expensive for them to participate and to buy the spectrum. This 
is an issue I have been very active on, including securing 
smaller licenses for the 3.5 gigahertz spectrum auction. This 
spectrum will be prime for 5G, and I hope that with the smaller 
sizes, our rural and tribal carriers can buy spectrum, and 
importantly, better connect Montana.
    Mr. Von Ah and Mr. Stockdale, how do we continue promoting 
small licenses for spectrum auctions, so that tribal entities 
can participate in the 5G economy?
    Mr. Von Ah. Well, certainly, smaller license sizes can help 
get tribal entities into the game. And I just would reference 
the 2.5 gigahertz order did have the tribal priority window. I 
don't know if the 3.5 gigahertz will or not. That is yet to be 
determined. But that is another sort of consideration, when you 
are thinking of the ability for tribal entities to access the 
spectrum.
    I would also just mention that it is not just the size of 
the area, but it is also the costs, what will the costs of 
those licenses be. Will they be, when a tribal entity is trying 
to figure out what to do, they need to build out, they need to 
meet build-out requirements when they have that license, are 
there radios or other things, is there other off the shelf 
technology, what is the cost of that.
    So there are a number of things that have to be considered 
when you are making, when you are going to go in and say, yes, 
I want that license, I want to put a bid in for it. So there 
are a number of considerations, but certainly the size, and a 
smaller size, like a county, is going to help them get in the 
game.
    Senator Daines. Thank you. Mr. Stockdale?
    Mr. Stockdale. Senator, thank you for the question. Let me 
start my answer by noting that while certain spectrum bands are 
auctioned and are required to be under the statute, the 
commission has tried to make available other bands that are not 
subject to auction. The two that I mentioned earlier, the 2.5 
gigahertz band, in which we are providing a tribal window, and 
the possibility of gaining GAA access with respect to the 3.5 
gigahertz band.
    Now, with respect to auctioned bands, with respect to each 
band, the commission tries to determine an efficient geographic 
licensing size. That depends in part on the specific 
characteristics of the band, but it involves such 
considerations as the geographic complementarities between 
different areas. And also, the sort of practical difficulty of 
designing an auction software that can simultaneously auction 
off all these bands.
    I should note that for both the 2.5 gigahertz auction and 
the 3.5 gigahertz auctions, we will be auctioning them off at a 
smaller size than any other previous spectrum auction. We will 
be auctioning it off at the county size.
    Finally, I note that with respect to auctions of spectrum, 
you still have the tribal lands bidding credit, which can 
encourage bidders to actually try to build out on tribal lands, 
so that they can gain access to that spectrum.
    Senator Daines. Thank you.
    Senator Udall. Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you very much.
    Mr. Stockdale, how did the FCC determine whether the new 
spectrum rules would be helpful to tribes?
    Mr. Stockdale. Well, Senator, as we do in all our 
rulemakings, we put out NPRMs in which we solicit comment and 
then we review all the comments submitted by interested 
parties, including by tribal nations.
    Senator Schatz. Right, I get what the Administrative 
Procedures Act calls for. I guess the question is, at the 
commonsense level, on the ground, in tribal communities, did 
you do any economic analysis, did you do any tribal 
consultation? Did you have any conversations about what was 
practicable, what was doable, what would actually help?
    Mr. Stockdale. I think what we did in the 2.5 gigahertz 
band, where we created the tribal window, was intended 
specifically to help tribal nations. This was an issue that was 
--
    Senator Schatz. I get your intent. I get the public policy 
here. We are all on the same page in terms of what we want to 
accomplish. But the question is not, how does the 
Administrative Procedure Act run. The question is, who did you 
talk to to land at this process that seems so labyrinthine as 
to be unworkable?
    Mr. Stockdale. Well, we did conduct several tribal 
workshops over the past year. I think we conducted seven in 
which we discussed a number of different policies that were 
before the commission, including spectrum policies. I am not 
sure that I would agree with your characterization that our 
orders resulted in labyrinthine policies. Spectrum policy is 
complex. We do try to consider the comments of all interested 
parties and come up with something that will work.
    Senator Schatz. So, how many of the federally recognized 
tribal nations are eligible currently to receive spectrum under 
these new rules?
    Mr. Stockdale. So, I believe that under the rules for the 
--
    Senator Schatz. Let's do it this way. You need a license, 
right?
    Mr. Stockdale. Well, no, not necessarily. So for the 3.5 
gigahertz band, it is licensed by rule. So tribes could go in 
as a GAA operator, build a network and start providing wireless 
broadband service.
    Senator Schatz. Is that a simple process, to become a GAA 
operator?
    Mr. Stockdale. Well, we just, this past week, issued a 
public notice indicating that five SASs had passed their 
laboratory testing and were starting initial commercial 
deployments. These will be the systems that----
    Senator Schatz. I am sorry, what was that word you used?
    Mr. Stockdale. Spectrum Administrative Systems, SASs. And 
these are the sort of dynamic spectrum coordinators that will 
coordinate spectrum use between the incumbent users, priority 
access licensees and GAA users.
    In rural areas, such as rural tribal areas, where there may 
be little interest in sort of commercial use of the spectrum, 
the GAA access may----
    Senator Schatz. So out of the 573 federally recognized 
nations, how many are actively participating in this process?
    Mr. Stockdale. We are just beginning a process for outreach 
to these nations.
    Senator Schatz. Do you think it would have made sense to do 
the outreach before the NPRM?
    Mr. Stockdale. Well, I think that, Senator, we have a 
better idea now of exactly what is involved, and we are, we, 
and by that I mean ONAP and the wireless staff, are planning a 
number of workshops, we are beefing up our person to person 
advisors, so that tribes can reach us.
    The only qualification I would note is, any of those tribes 
that have tribal lands that are qualified as rural are eligible 
to participate.
    Senator Schatz. Right, but this kind of goes, and there are 
a couple of points to be made. First of all, tribal 
consultation is not just a requirement of the law. It is not 
just a requirement pursuant to our collective trust 
responsibility. It is also just a smart way to do it, if you 
actually want tribal lands to get access to this.
    And so if you are a nation, and you find out about this FCC 
process, but even GAO experts can't operate the online portal, 
and then you are thinking, well, we have our schools and we 
have our hospitals, and we have our roads, and we have 
community service needs, and we have this need for additional 
connectivity, but I have to get a license for that.
    So the question becomes whether you are taking seriously 
the proposition that you as a representative of the Federal 
Government have a special trust responsibility to treat this 
not just as rural broadband or a subset of rural broadband, but 
an obligation that you have pursuant to a nation to nation 
relationship.
    Mr. Stockdale. Senator, you are absolutely correct that the 
commission recognizes its special trust relationship we have 
with tribal nations. And we recognize the importance of 
consultation with the tribal nations.
    One of the things that we try to do, with the 2.5 gigahertz 
band, and the tribal window, is to target this relief to rural 
tribal nations. We are expending significant resources trying 
to set up outreach, so that all tribes will have the 
information necessary to participate.
    We are also trying to modify some of our software in our 
ULS system to make it easier for tribes to participate in 2.5 
gigahertz band.
    Senator Schatz. Thank you.
    Senator Udall. Thank you, Senator Schatz.
    Senator McSally.

               STATEMENT OF HON. MARTHA McSALLY, 
                   U.S. SENATOR FROM ARIZONA

    Senator McSally. Thank you, and I want to thank Chairman 
Hoeven and Vice Chairman Udall for holding this really 
important hearing today. I appreciate Belinda Nelson being here 
representing the Gila River Indian Community, for your 
testimony as well as the other witnesses.
    In Arizona, we have 21 federally recognized tribes, more 
than a quarter of the State covered by tribal land. This topic 
is really important to my constituents. As the FCC has 
estimated, about 65 percent of Native Americans on tribal land 
have access to high speed internet, that probably is a little 
too generous. A 2018 study by the Census Bureau said that just 
53 percent of households on tribal lands with a computer have 
access to high speed internet, compared to 82 percent 
nationwide.
    So what has been clear from this testimony, and what we 
know in the facts that tribal lands are lagging way behind, and 
this deficit has far-reaching effects. This isn't just about 
being able to watch your favorite movie. Where we see 
technology is now making such a difference for economic 
opportunities, for entrepreneurship, for better health outcomes 
and health care access using technology.
    So it is across the board, education, you name it, 
impacting negatively our tribal entities. So we have to do more 
in order to address this issue. That is why I really appreciate 
the hearing.
    Ms. Nelson, it was great to see you yesterday and hear a 
little bit about what is going on with the Gila River 
Telecommunications, or GRTI, right, that is your acronym? So I 
want to talk a little bit more about some of the topics in your 
testimony and what we talked about yesterday. You mentioned the 
recent decision to open up a tribal priority window in the 2.5 
gigahertz band, and its ability to help tribal entities acquire 
licensed spectrum.
    Can you talk a little bit more about what practical effects 
this has had? Do you think there is enough awareness about this 
program among tribal entities? What else can be done to 
increase awareness?
    Ms. Nelson. Thank you for the question, Senator. A new 
proceeding, a new opening was just ruled on in July. But the 
effect will be very positive in Indian Country once the word 
gets out. I think publicity from the tops of buildings yelling 
to Indian Country, hey, this is available for you to apply for, 
and let the citizens of Native America know that this is an 
opportunity for them. A little more publicity on the 
opportunity would be very helpful.
    I think even navigating through the application process, 
tribes in general don't have the technical education, the basic 
knowledge on how to decipher or analyze what a particular band 
of spectrum would do for them and what it would allow them to 
do. Just general, basic information is needed for them to learn 
how to use, take advantage of the 2.5 gigahertz spectrum.
    I think to that end, GRTI and other tribal telcos can 
assist the FCC, assist this Committee to get the word out of 
how to use the spectrum and the opportunities that are 
available, since we do have some knowledge of 
telecommunications. I think that with us tribal telcos, when we 
visited the FCC yesterday, we were asking questions about the 
parameters and the application process for this 2.5 gigahertz 
spectrum, and that information is not quite readily available.
    We did ask for an extension of the application process, 
because it is going to take tribes some time to know what the 
application process will be, and to get their tribe applying 
for this. In fact, it wouldn't be too crazy for every single 
tribe in this Nation to apply for this and then just see how 
they can use it. But they don't know about it right now, and 
GRTI can assist in spreading that information.
    Senator McSally. One thing about this hearing is maybe we 
can pass the word as well, to provide more awareness of it.
    Mr. Stockdale, what else could you do in order to make sure 
that the tribes do know about this opportunity, and is there an 
opening for an extension to the deadline in order to allow them 
to navigate the process?
    Mr. Stockdale. First of all, Senator, I agree with you that 
it is important that we make tribes aware of this opportunity 
and help them navigate ULS and make the applications. That is 
the reason that we are launching an extensive outreach program 
with multiple workshops. We will be also developing online 
tutorials and online tools to help them identify whether 
spectrum is available on their tribal lands. We will be ready 
to answer any questions about how to apply.
    With respect to the sort of timeline for the tribal window, 
the commission delegated that decision to the Bureau, which has 
not, I believe, decided that yet. What we are doing right now 
is trying to get out the word as quickly as possible, so that 
as many tribes as possible can take advantage of this 
opportunity.
    Senator McSally. Great. I would ask you both to keep us 
informed on the timeline issue, and we will do whatever we can 
in order to make sure that there is enough time available for 
tribes to take advantage of this. Thank you.
    Senator Udall. Thank you, Senator McSally.
    Senator Smith.

                 STATEMENT OF HON. TINA SMITH, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Smith. Thank you very much, and thanks to our panel 
for being here today.
    I have been working on broadband and expanding, especially 
into rural areas, for quite a while. So I am used to being 
confused. I am not a technical person, but I have come to 
understand that this is incredibly complicated. I think about 
the complexities, first, the special trust relationship that 
the Federal Government has with our tribal nations, 11 in 
Minnesota. Then I think about what it is like for some of the 
more rural tribal nations in Minnesota that are small 
governments, and with not a lot of resources. It just sort of 
blows my mind, how you would ever figure out how to navigate 
all this.
    But one thing I have figured out, is that money matters. 
You have to have money to do this. So I want to just start with 
Mr. Stockdale. The FCC has proposed a cap on the Universal 
Service Fund and the programs that it supports, like high costs 
and lifeline and rural health care and schools and libraries. 
It all provides fundamental resources for expanding broadband.
    This is especially an issue, I would argue, on tribal 
lands, that really depend on this funding to provide services 
where it is, frankly, not economic, there is not a good 
business model for providing broadband in such a dispersed 
area.
    So would you talk to me about this proposed cap on the 
Universal Service Fund and what impact you think--I am going to 
ask you and I would be interested in hearing from the rest of 
the panel--on what impact you think this might have on the 
money that we need in order to build this out?
    Mr. Stockdale. Senator, I should note at the outset that is 
the Wire Line Bureau, not mine, that is responsible for the 
Universal Service Fund. So I don't claim to be an expert here.
    Senator Smith. Yes, I am aware, and I am sorry that we 
don't have somebody who could answer that question here today.
    Mr. Stockdale. Well, I just don't want to end up 
overstating my knowledge. But in any case, I do think that the 
chairman has made clear that his top priority is to close the 
digital divide, and to bring the benefits of the internet age 
to all citizens in both rural and rural-tribal areas. At the 
same time, there are problems with waste, fraud, and abuse in 
certain USF programs. And the commission has been trying to 
weed out and target those.
    So I think what we are trying to do is achieve a balance, 
to try to keep the fund at a reasonable size, but make it used 
most effectively.
    Would the other members of the panel like to comment on 
what impact you think it would have if this cap were to take 
place?
    Ms. Nelson. Thank you, Senator, for that really important 
question. This is currently on our minds as a tribal carrier 
serving Indian Country. We are known as a legacy rate of return 
carrier under the funding mechanisms of the FCC. The proposed 
cap for the Universal Service Fund that you mentioned is going 
to have a very negative effect on the way that we are serving 
our communities.
    Tribal rate of return carriers experience higher 
operational costs, as you know, because we serve generally 
larger areas with less population or low-density population. 
And we have to deploy our networks through rugged terrain, 
mountains, what have you, it is higher costs right then and 
there. Any cap on high cost funding will be detrimental to our 
ability to operate and much less maintain the networks that we 
currently have deployed.
    Also, because we are operating under Federal jurisdiction 
as reservations, we have to comply with Federal mandates like 
environmental mandates, NEPA, our archeological monitoring and 
clearances of any dig that we might have. So we have to comply 
with those, and that is additional cost.
    So generally speaking, tribal carriers carry those costs. 
So a cap to high costs or any of the other programs would be 
very detrimental to us.
    I do want to mention that we have been petitioning the FCC 
for the last five years or so for an increased support for that 
very reason. In recent offering of the Alternative-Connect 
America Funding through the Universal Service Fund, additional 
support was given to carriers but not to legacy rate of return 
carriers, such as GRTI and other tribal carriers.
    So we would like to have the recognition of receiving 
additional support for legacy rate of return carriers that was 
not offered to us, and it was offered to a different category 
of carriers, which we don't understand.
    Senator Smith. I am out of time, so I should probably not 
pursue this. Let me just say, or do you want to answer quickly?
    Ms. Sekaquaptewa. Just really quickly. In New Mexico, the 
Universal Service Fund is doing amazing things for the tribal 
telcos to expand their service and increase their speeds. Even 
the small carriers, we can see the difference in the field, you 
can tell they are spending money to upgrade their cabinet, 
bring in new services and bring in new infrastructure.
    But then you can also where, in my community, where we have 
been trying, I told you we had one copper T-1 line five years 
ago. And when you try to order another slow, expensive copper 
T-1, you can't, because there is no copper. So we have also 
seen that the investment is not happening. So if we talk about 
waste, fraud, and abuse in these programs, we might also 
consider the, not just lifeline, not just e-rate, but look at 
the efficient use of the CAF and those funds as well.
    Senator Smith. All right, thank you. I think this is 
really, really important, and I think that it is not the time 
to be talking about capping the Universal Service Fund when we 
have such unmet need and such challenges in areas where you 
might have two households per square mile versus whatever, 50 
or 60. I realize, Mr. Stockdale, this is not in your specific 
range of responsibility, but Mr. Chair, I would like to have 
this question answered by the folks at the FCC who can answer 
it, because I think it is really important. Thank you.
    Mr. Stockdale. I am happy to take the question back.
    Senator Udall. Thank you, and get an answer for us. Thank 
you very much.
    Thank you, Senator Smith. Senator Lankford.

               STATEMENT OF HON. JAMES LANKFORD, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Lankford. Thank you. Thank you to all of you being 
here. This is always extra preparation and things that have to 
go on to prepare for this, so thanks for investing your time to 
prepare beforehand and during this time period as well.
    Mr. Stockdale, I have some questions for FCC. Do you have a 
good estimate at this point, is the FCC able to figure out how 
many tribes they expect to participate in the priority windows? 
Just give me a ballpark guess.
    Mr. Stockdale. I don't believe we have developed any 
estimates yet. We are trying to develop our research project.
    What I think is important is that any tribal nation whose 
tribal lands lie in rural areas is eligible to participate. We 
hope that as many as want to will do so.
    Senator Lankford. But do you expect that to be 500, or do 
you expect that to be 50, or 10? You have to have some kind of 
ballpark on it.
    Mr. Stockdale. I would not want to speculate at this point.
    Senator Lankford. Okay. So give me a ballpark on the number 
of licenses at the end of it, so not just participants in it, 
but as far as how many licenses do you think will be actually 
completed at the end?
    Mr. Stockdale. I think that these licenses could occur 
wherever a tribal nation that has rural-tribal lands seeks it. 
So we could be talking in the hundreds, if this program is 
successful.
    Senator Lankford. Okay. So as I look at the program and try 
to be able to figure out the outline of it, some tribes are in 
extremely remote areas where there is a very low density of 
population and it is exceptionally expensive to be able to get 
to that area, and it is exceptionally important that there is a 
good vehicle to be able to get good coverage in that area.
    There are other tribes that there are multiple communities 
that are either right around their reservation area or their 
traditional areas, or they cover multiple towns that in that 
area. If you are in Oklahoma, there are tribal areas that have 
multiple communities that are there. Some under 25,000, some 
over 50,000, some of all different sizes.
    When you are trying to be able to balance out the threshold 
of what rural area means, how do you hit that balance of what 
is a rural area, what is not a rural area, and the effect of 
other communities immediately around that could also be 
affected as well? I am trying to give you just simple questions 
today.
    Mr. Stockdale. Well, you are testing my memory here as to 
what we said in the order. I believe we defined a rural area as 
an area that is not an urban area or an urban cluster with 
greater than 50,000 people.
    Senator Lankford. And that cluster being 50,000 total, or 
50,000 in that immediate area?
    Mr. Stockdale. I believe in that immediate area, but it was 
a census definition and I have not personally gone back and 
read the definition myself.
    Let me just add one other point, Senator, though, which is, 
you are absolutely right that there are going to be some areas 
that are going to be extremely remote with very low population 
density. One of the advantages and promises of this mid-band 
spectrum is that it may make it more cost-effective to deploy 
high-speed broadband in these areas where, for example, 
deploying fiber would not be. And in fact where we have seen 
already that tribes and others who have gotten STAs in these 
band have been able to buy equipment, which is readily 
available, deploy it quickly and then provide high speed 
service to their customers or their citizens.
    Senator Lankford. Could a, and this is the balance of 
whether the tribe owns the company that is actually going to do 
the communications, or is going to work with a secondary 
market, has FCC made any kind of stipulation if a tribe gets 
spectrum, purchases that spectrum, what they do with it there? 
Can they sell it in a secondary market to anyone they choose? 
Can they choose to use it in their own telecom companies?
    Once you are the owner of spectrum, obviously, that is an 
exceptionally valuable resource for many areas as well. While 
there is not high competition for some of that space in 
exceptionally rural areas, and more urban areas, or areas where 
there are communities and towns that are nearby in close 
proximity, that is a very high demand item, to be able to have 
ownership of that spectrum.
    Is there an FCC guidance for if they have to, if they are 
buying spectrum, they have to use it with their own telecom 
company, or if they can then sell it in a secondary market?
    Mr. Stockdale. I guess there are a couple parts to your 
question, Senator, and let me try to separate them out.
    With respect to the 2.5, it won't be buying spectrum, this 
would be spectrum they could obtain for free, but they would 
have to meet the buildout requirements. With respect that they 
obtain at auction, there will be buildout requirements 
associated with that. We developed different buildout 
requirements with respect to each band.
    That doesn't prevent tribal nations from entering into 
arrangements and partnerships with other entities to help them 
build out that spectrum. The only thing they cannot do is, they 
cannot particularly sell the spectrum before any buildout to a 
third party. So we expect, particularly if they have taken 
advantage of any of the bidding credits that are available to 
tribal nations.
    Senator Lankford. How long would they have to own that 
then? How long would they have to keep possession of that? 
There are separate concerns about buildout. What kind of time 
period would you expect that would be?
    Mr. Stockdale. Buildout requirements vary. In the case of 
the 2.5, we have seen examples where carriers or tribes that 
have received authorizations have built out LTE networks within 
a matter of months. One of the reasons is because the equipment 
for that spectrum band is readily available.
    Now, I will make the point that was made by Belinda that, 
in some case, there is technical expertise that is required. 
But the point I am making is that the deployments can be 
quickly made in many cases.
    Senator Lankford. And then at that point, it could be sold?
    Mr. Stockdale. Yes.
    Senator Lankford. Okay. All right, thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator Lankford.
    Mr. Stockdale, the FCC's May 2019 report on broadband 
deployment in Indian Country notes that just 46.6 percent of 
housing units on rural tribal lands have access to fixed 
broadband service, a nearly 27-point gap compared to non-tribal 
rural communities. Yet the same report concluded that advanced 
telecommunications capability is being deployed to all 
Americans in a reasonable and timely fashion. That is a 
critical finding there.
    How did the FCC arrive at that conclusion, particularly in 
light of the agency's own statistics that reveal tribal 
communities are not being fully served, especially in rural 
areas?
    Mr. Stockdale. Senator, I will note, as you noted, the 
figure you cited was for fixed broadband. The same report also 
noted that for tribal lands, I believe that it is 96 point some 
percent of households on tribal lands have access to LTE of 
5.1. We don't think, I mean, certainly broadband can be 
improved, but we think that we have made significant strides.
    Senator Udall. The way I read this statute is that when 
they are talking about deploying to all Americans in a 
reasonable and timely fashion, your statute says if that 
determination is negative, the FCC should take immediate action 
to accelerate deployment of such capability by removing 
barriers to infrastructure investment and by promoting 
competition in the telecommunications market.
    So they want you, if that isn't the case, tribal nations, 
rural areas aren't getting the service, they want you to 
aggressively move to correct that. And by making this finding, 
you have then obviated your need to do that. I think you are 
shirking your responsibility in terms of what you should be 
doing for these tribal nations.
    Mr. Stockdale. Senator, I take your point. I will note, 
however, that Chairman Pai's top priority is to close the 
digital divide, and he has made aggressive policy moves to do 
so. I think particularly in the wireless context, we have made 
significant progress. I also note that particularly for rural 
high-cost areas, it may be wireless technology that proves a 
cost-effective solution that enables us to connect all 
Americans.
    Senator Udall. Thank you.
    Mr. Von Ah. the GAO report notes that having access to 
licensed spectrum is one factor that would enable a tribe to 
establish its own telecommunications company. But according to 
the GAO, tribal service providers must hold, lease, or show 
they have access to licensed spectrum to receive Federal 
funding through two Universal Service Fund programs, the 
Mobility Fund and the Tribal Mobility Fund.
    FCC testified that its new tribal priority window would 
provide opportunities for access to spectrum. In GAO's view, is 
this new authority enough, particularly for tribes who may not 
have the resources and expertise to stand up their own telecom 
company?
    Mr. Von Ah. Thank you, Senator, for the question. Whether 
it is enough is certainly going to depend on the specific tribe 
we are talking about. I would first of all point out that to 
access that tribal priority window, they don't need to be a 
telco, an eligible telecommunication carrier, an ETC, to access 
the funds that they do. So certainly, for those that do not 
have the expertise or the knowledge or if they don't have the 
knowledge of how to build a telecommunications network, it is 
going to be very difficult to access that spectrum. There is 
going to be a priority window, it is going to be relatively 
short, you need to build out, there may be equipment ready for 
you to do so, but you do need the expertise and the capital 
money available to pursue that opportunity.
    Senator Udall. Thank you.
    Kimball, the GAO report indicated that the FCC does not 
analyze information on unused licensed spectrum over tribal 
lands, even though the FCC has access to this data. The report 
also indicated that tribes reported that unused spectrum 
licenses over tribal lands could present opportunities through 
the secondary market for tribal entities to obtain spectrum.
    Do you have any recommendations on what the FCC should do 
to ensure unused, assigned spectrum that covers tribal lands is 
utilized to bridge the tribal digital divide?
    Ms. Sekaquaptewa. They use it or lose it, if they are not 
using it and they agreed to some rules, then they should give 
it back so that somebody else can make better use of it.
    Senator Udall. And you said earlier, in terms of you being 
a tribal nation, and this is over your territory, you should 
have access to it.
    Ms. Sekaquaptewa. We should have access to it, and at the 
very minimum, some protections that defend us in a legal 
situation for us to use it, if it is not being used. There is a 
great risk on us to try to move forward outside the parameters 
of the regulatory framework.
    I know we have been talking a lot about the tribal 
opportunity and the 2.5 and the 3.5. I would just stress again 
that the rules for tribes seem, I don't know what the word 
would be, our opportunities, that we have to scrounge a little 
bit more.
    Like with the 2.5, where there is unused, unlicensed 
opportunity, the tribal buildout is, they require that you 
build out more of a network in a faster time. So, what if you 
don't? Do you lose it, and then there is an auction and the 
auction winner comes in? And why do they get more time to build 
out less of a network? So I ask that.
    Then with the 3.5, I appreciate the general access license, 
the GALs, or general authorization, excuse me. And we are 
probably going to participate in that space. We would like to 
try to go for the PAL licenses. In Sandoval County, the bidding 
credits are at 26,000, but it is a huge county, so that speaks 
to the Senator's concern that our buildout requirement would be 
more daunting, just because of the size of our territory.
    So if we find ourselves just competing or setting up a 
network where we don't have to have the license and we don't 
have that protection, then we are going to be with everybody 
else that is popping up and trying to put up towers on 
mountains and bleeding from here or there to service our 
territories, so interference is going to be a problem.
    So again, where we put our money to invest in those 
networks is at a smart play with the interference, where the 
next person just coming in setting up shop next to us has as 
much opportunity to fight for those airwaves, reducing the 
performance of our networks.
    Senator Udall. Thank you very much.
    In February of this year, the D.C. Circuit struck down the 
FCC's order limiting the tribal lifeline subsidy. The court 
determined that the order's limitations were arbitrary and 
capricious, citing a lack of reasoned explanation for this 
change in policy. In August of this year, the same court 
vacated the commission's order exempting most small cell 
construction from historic preservation and environmental 
review, again determining that the order was arbitrary and 
capricious.
    Notably, not a single tribe supported either final order, 
which were split decisions. Belinda, FCC Commissioner 
Rosenworcel noted in her dissent to one of the vacated orders 
that the agency failed to uphold its longstanding duty to 
consult with tribes in its own consultation policy. Do you 
agree with Commissioner Rosenworcel and the D.C. Court of 
Appeals that the FCC has fallen short on its tribal 
consultation obligations?
    Ms. Nelson. Thank you, Senator, Mr. Vice Chairman. I do 
agree with Commissioner Rosenworcel's comment and sentiments. I 
attended a lot of the hearings for what we call Section 106 
topic in Indian Country, where discussion of placing towers on 
sacred sites or not consulting with tribes for placement of 
towers, in fact seemingly preferring to accelerate wireless 
deployment for wireless carriers, seemed to be the order of the 
day.
    The FCC also held a meeting with many tribes at their 
headquarters where many tribes spoke out against it, not 
consulting with tribes. So with the Federal trust obligation, I 
think that in that particular respect, the FCC did not adhere 
to its trust responsibility, and now for GRTI, we filed 
comments many times on the proceedings. We filed reply 
comments. We are never told or given any response to our 
concerns in the filings. So there is no dialogue from the FCC 
or the agency itself as to our concerns.
    So we would greatly appreciate even some acknowledgement or 
some recognition of our concerns in our filings, as we adhere 
to those administrative processes.
    Senator Udall. Thank you so much for that answer. I want to 
thank all of the witnesses for being here.
    Mr. Stockdale. Mr. Chairman, make I make one comment?
    Senator Udall. Mr. Stockdale, please.
    Mr. Stockdale. I have one comment on the issue of 
consultation. The FCC takes very seriously the trust 
relationship that we have with tribal nations. We do try to 
consult.
    With respect to the small cell order, the commission in 
their order listed all the instances in which the FCC staff 
met, including the chairman and commissioners, met with and 
consulted with tribes. That appeal, I would note that tribal 
appellants claimed as one of the deficiencies of the order that 
it was insufficient consultation and the D.C. Circuit Court of 
Appeals rejected that claim.
    Senator Udall. Thank you. Let me just thank all of the 
witnesses today. You all realize what a very important subject 
this is, and you have come, some of you have come from very 
long distances to testify, and we very, very much appreciate 
your input on this subject.
    If there are no more questions for today, members may also 
submit follow-up questions, written questions for the record. 
We hope that you will answer those promptly when you get them. 
The hearing record will remain open for two weeks. And once 
again, I want to thank the witnesses for their time and 
testimony.
    The hearing is adjourned.
    [Whereupon, at 4:07 p.m., the hearing was adjourned.]

                            A P P E N D I X

 Prepared Statement of Loris Taylor, President/CEO, Native Public Media
    Good afternoon Chairman Hoeven, Vice-Chairman Udall, and Members of 
the Senate Committee on Indian Affairs. Thank you for allowing me to 
submit the following statement on behalf of Native Public Media, an 
organization I am proud to serve as its President and CEO, in today's 
oversight hearing on the GAO Report on Tribal Access to Spectrum: 
Promoting Communications Services in Indian Country. We are honored and 
privileged by the opportunity to address you on this urgent and vital 
topic. First, a word about who we are. Established in 2004, Native 
Public Media (NPM) is a non-profit organization dedicated to serving 
Tribal communities seeking to develop communications networks. NPM's 
mission is to promote healthy, engaged, and independent Native 
communities by expanding communications capacity on Tribal lands and by 
empowering a strong, proud Native voice in the media. By applying the 
spirit, law, and exercise of Tribal sovereignty to the development and 
implementation of media and communications, NPM provides leadership, 
designs programming, and engages on a proactive level in securing and 
maintaining Tribal radio, television, and communications systems for 
Indian Country. NPM currently serves as a coordinating entity for 57 
Tribal radio stations, and 4 Tribal television stations, and for one 
Tribal Educational Broadband Service licensee, providing centralized 
resources and strategic services to assist in developing communications 
systems in Indian Country that is, in part, dependent on spectrum 
resources. We respectfully request this Committee and its Honorable 
members, to consider the following:
    I. FCC Has Long Recognized That Tribal Lands are Grossly 
Underserved in Broadband Access and That Reliance on Market Forces is 
Ineffective to Increase Access
    The Federal Communications Commission (FCC) is charged by Congress 
in the Communications Act with allocating and administering 
electromagnetic spectrum in the public interest, convenience, and 
necessity. \1\ Congress also specifically charged the FCC to accelerate 
the availability of affordable high speed broadband Internet service to 
all Americans, including those living on rural and Tribal lands, and 
since 2010 that mandate has been enshrined in formal FCC policy. \2\ 
Within its broad mandate, the FCC recognizes a special responsibility 
to Tribal communities to implement policies and regulations promoting 
their self-sufficiency and economic development, \3\ and that access to 
quality broadband service is critical to achieve those goals. \4\
---------------------------------------------------------------------------
    \1\ Communications Act of 1934, Pub. L. No. 73-416, 48 Stat. 1064 
(1934), as amended by Telecommunications Act of 1996, Pub. L. No. 104-
104,  706, 110 Stat. 53, 153 (1996) (codified as amended at 47 U.S.C. 
 151, et seq.).
    \2\ 47 U.S.C.  1302(b); FCC, Connecting America: The National 
Broadband Plan (Washington, D.C.: 2010).
    \3\ Statement of Policy on Establishing a Government-to-Government 
Relationship with Indian Tribes, Policy Statement, 16 FCC Rcd 4078 
(2000).
    \4\ FCC, Connecting America: The National Broadband Plan (2010).
---------------------------------------------------------------------------
    The FCC concedes that Tribal lands have been and are grossly 
underserved. According to the Commission's 2018 Broadband Deployment 
Report, an estimated 35 percent of residents of Tribal lands lacked 
access to broadband speeds at 25 Mbps download and 3 Mbps upload (25 
Mbps/3 Mbps), which is the U.S. standard. \5\ Comparatively, the 
majority of the U.S. population has access to high-speed broadband at 
or above the standard with just 8 percent without a broadband 
connection. Since the early 2000's, Tribes have lagged behind the rest 
of the U.S. in access to telecommunications services, both telephone 
and Internet. The digital divide on Tribal lands is but the latest 
example of that historic disparity.
---------------------------------------------------------------------------
    \5\ FCC, 2018 Broadband Deployment Report, FCC No. 18-10 (Feb. 2, 
2018).
---------------------------------------------------------------------------
    It has long been recognized that reliance on private sector market 
forces alone will not bring the benefits of affordable high-quality 
broadband service to Tribal lands. Low population density, isolation, 
poor roads and transportation infrastructure, lack of first responder 
services and conventional physical addresses, and the difficult terrain 
of Tribal lands contribute to unattractive private sector market 
conditions for utilities or commercial broadband service providers to 
build and operate systems there. \6\ Ironically, each and every one of 
these same conditions also supports and makes the need for fast 
reliable broadband service critical for the well-being, safety, self-
sufficiency and happiness of people living on Tribal lands in this day 
and age, in which the Internet is the dominant and transformational 
engine of communication and commerce. Compounding the failure of 
private market forces, most Tribes, especially in rural areas, lack 
sufficient resources to fund development and deployment on their own. 
The reality of most tribes is that no broadband infrastructure will get 
built in Indian country without some form of federal assistance to 
support it.
---------------------------------------------------------------------------
    \6\ GAO, Telecommunications: Additional Coordination and 
Performance Measurement Needed for High-Speed Internet Access Programs 
on Tribal Lands, GAO-16-222 (Jan. 29, 2016).
---------------------------------------------------------------------------
    But at the end of the day, bridging the Tribal digital divide is 
not just about infrastructure. It is about bringing the same affordable 
high speed broadband resources most Americans enjoy to people living on 
Tribal lands. It's about the child that is required to complete 
homework using the Internet, about the individual who wants to apply 
for a loan online, about the student who wants to access library 
resources around the globe, or an app developer who wants to create a 
way to sustain tribal language use among his peers. This is a story 
about 573 diverse nations, rich in culture, history, and experience to 
dream and innovate answers to challenges of broadband disparities on 
their own terms, and to participate fully in self-determined Internet 
governance that addresses how technology can benefit and sustain 
strong, healthy, and robust tribal communities in new and innovative 
ways. This is not only a quality of life issue, but an issue that gives 
life to the spirit of the law that mandates a right of all Americans to 
connect and to communicate. Real lives are at stake.
II. September 2018 GAO Reports: Regulatory Barriers Restrict Tribes' 
        Access to Federal Broadband Development Funding; and FCC 
        Underreporting, Market Failure and Lack of Meaningful 
        Engagement Among FCC, Tribes and Service Providers Contribute 
        to Those Barriers and Failures
    In September 2018, the GAO issued a report finding what Tribes 
already know from bitter experience--few have been successful in 
obtaining federal funding under the FCC's Universal Service Fund and 
the Rural Utilities Service broadband development grant programs, which 
purport to be designed to improve access in underserved areas where 
deployment costs are high. \7\ The GAO also found limited opportunities 
for Tribes to partner with various non-Tribal entities, including 
federal grant and subsidy recipients, to improve broadband access on 
Tribal lands, and that such partnerships (where they exist) enjoyed 
uneven success. These findings are accurate in NPM's experience.
---------------------------------------------------------------------------
    \7\ GAO, Tribal Broadband: Few Partnerships Exist and the Rural 
Utilities Service Needs to Identify and Address Any Funding Barriers 
Tribes Face, GAO-18-682, Sept., 2018 (``2018 GAO, Few Partnerships'').
---------------------------------------------------------------------------
    The GAO also found that significant regulatory barriers inhibit 
Tribes' ability to take advantage of federal broadband development 
funding to provide broadband systems and service in their own 
communities, without depending on others. These barriers include 
federal statutory and FCC regulatory requirements that Tribal 
applicants must qualify as ``eligible telecommunications carriers'' 
(ETCs) to obtain FCC USF Connect America Funding (CAF). A criteria 
designed for massive telephone companies that dominated the 
telecommunications industry decades ago, is exacerbated by the FCC's 
glacial pace in ruling on the ETC eligibility of the few Tribes who 
have applied for that designation. \8\
---------------------------------------------------------------------------
    \8\ For example, the Leech Lake Band of Ojibwe applied to FCC for 
ETC status in 2013, and incurred massive costs to stand up a broadband 
service through its own tribally-charted telecommunications company, on 
the assumption that CAF funding would be available to offset those 
costs. Five years later, the band was still awaiting FCC action, and is 
in danger of having to shut down the service. 2018 GAO, Few 
Partnerships, at 19.
---------------------------------------------------------------------------
    Further, the FCC's grants of billions of dollars in CAF funding did 
not stimulate non-Tribal ETCs to improve broadband access on Tribal 
lands. As the GAO found, non-tribal ETCs given CAF funding to improve 
broadband access in underserved areas simply do not deploy service in 
the Tribal parts of those areas. In our view, this is the result of the 
FCC's failed quasi-market-based approach to administering USF grants 
and subsidies. Further, the complexity and up-front expense of 
navigating the RUS grant application process and difficulty meeting 
eligibility requirements deters many Tribes from obtaining funding from 
that source. Specifically, as the GAO found, the RUS grant process 
requires: preparing complex existing and planned network design 
documents; demonstrating financial sustainability (essentially, a 
return on investment) within 5 years, a very unrealistic expectation 
for the Tribal areas in question; and matching funding from non-federal 
sources, which cannot be in the form of in-kind contributions of 
equipment or services. As a practical matter, these requirements make 
RUS funding unattainable for many Tribes.
    In its other September 2018 report, the GAO found that the FCC 
continues to overstate the actual level of broadband access on Tribal 
lands, in reliance on incomplete and inaccurate penetration data. \9\ 
The primary method the FCC uses to collect availability data across the 
U.S. is through its Form 477. ETC funding recipients are required to 
submit data annually to the FCC on Census blocks to which they provide 
service. However, the GAO found ETC-reported Form 477 data ``[d]oes not 
accurately or completely capture broadband access on tribal lands 
because it (1) captures nationwide broadband availability data--areas 
where providers may have broadband infrastructure--but does so in a way 
that leads to overstatements of availability, and (2) does not capture 
information on factors that the FCC and tribal stakeholders have stated 
can affect broadband access on tribal lands, such as affordability, 
service quality, and denials of service.'' In reporting Form 477 data, 
a carrier reporting coverage in a Census block may base that report on 
only a single household in that block actually receiving such service.
---------------------------------------------------------------------------
    \9\ GAO, Tribal Broadband: FCC's Data Overstate Access, and Tribes 
Face Barriers Accessing Funding, GAO-19-134T (Sept. 2018).
---------------------------------------------------------------------------
    These overstatements of service availability could lead to Census 
blocks on Tribal lands being deemed ineligible for federal broadband 
infrastructure funds. They also contribute to the FCC's apparent false 
sense that its policies and regulations to improve Tribal broadband 
access are effective. For instance, the GAO found that some of the 
Tribes interviewed specifically stated that they were unable to obtain 
federal funds to deploy broadband infrastructure due to their 
reservation lands being listed as `served' by other broadband 
providers. The GAO also found that there was no formal process at the 
FCC for Tribes to challenge broadband availability data on Tribal 
lands. Additionally, when Tribes attempt to dispute reported data, they 
are often unsuccessful. This systemic ``bad data'' problem exacerbates 
other problems that all converge to obstruct real progress toward 
closing the Tribal digital divide.
    Better and more meaningful Tribal engagement, consultation, and 
accurate information-sharing between and among FCC service providers 
and Tribes might improve broadband access data, but existing FCC 
regulations and policies do little to encourage either. In fairness, 
some providers have actively engaged with Tribes to develop needs 
assessments and deployment, feasibility, and sustainability planning 
for infrastructure deployment, and there have been some success 
stories. However, many Tribes experience a general lack of engagement 
from non-Tribal service providers and report that they simply receive a 
template letter once a year as a way for the provider to `check the 
box' on reporting they've engaged with Tribal governments in their 
service area. Moreover, information provided by providers to Tribes is 
often heavily redacted or withheld unless the Tribe signs a restrictive 
non-disclosure agreement. There are no FCC rules that regulate or 
prohibit this practice. Lack of access to detailed and accurate 
information about broadband availability inhibits the practical ability 
of Tribes to challenge before the FCC data reported by the providers, 
upon which the Tribes eligibility for federal grant funding may depend. 
Under existing rules and policies, service providers have no reason or 
incentive to report richer, accurate Tribal area broadband access data 
than the inaccurate and incomplete data the FCC collects, and every 
reason not to.
    The two September 2018 GAO reports culminated in an Oversight 
Hearing before this Committee in October 2018. Those studies and 
testimony from Tribal stakeholders before this Committee last Fall 
chronicle the barriers discussed in our testimony today, and the utter 
failure of market forces and the FCC to meaningfully address those 
barriers documented by GAO and multiple witnesses. We refer the 
Committee to that record. Very little has changed for the better since 
then.
III. November 2018 GAO Report: Tribes Lack the Ability to Obtain 
        Licensed Wireless Spectrum in Competitive Auctions; Market 
        Failure and FCC's Policies Inhibit Expansion of Broadband 
        Services on Tribal Land by Non-Tribal Wireless Licensees
    Since the Committee's last oversight hearing, GAO released in 
November 2018 yet another report, this one highlighting issues with 
Tribal access to wireless spectrum. \10\ We agree that the difficulty 
Tribes face in obtaining licensed wireless spectrum suitable for 
affordable broadband service is a major barrier to progress in 
improving Tribal broadband access. The November 2018 GAO Report 
identified the FCC's current auction-based method of assigning and 
licensing wireless spectrum to the highest bidder, and Tribes' lack of 
access to capital, as factors that converge to deny Tribes' the ability 
to establish their own primary broadband services and infrastructure as 
licensees. \11\
---------------------------------------------------------------------------
    \10\ GAO, Tribal Broadband: FCC Should Undertake Efforts to Better 
Promote Tribal Access to Spectrum, GAO-19-75 (November 2018) (``2018 
GAO-Tribal Access to Spectrum'').
    \11\ The experience of the most isolated tribe in America and the 
traditional guardians of the Grand Canyon, the Havasupai, is 
instructive. For that Tribe, the primary bottleneck in deploying 
wireless broadband was not infrastructure cost. Rather, regulatory 
obstructions caused by FCC policy were the primary source of delay and 
costs. It took lawyers, and four months to get special temporary 
authority, and then, over another year for the FCC to grant a waiver of 
its long-standing ``freeze'' on applications for assignment of 
unlicensed 2.5 GHz spectrum (which was specifically set aside for 
educational not-profit and tribal use), and a permanent license. Now, 
the Havasupai report that their desire to expand and upgrade the power 
on its modest wireless network to bring service to the entire village, 
and the bandwidth needed to offer 911 service, tele-learning, and 
telemedicine, may be frustrated because a non-Tribal provider in 2015 
proposed service in the area through the FCC's ``prior coordination 
notification'' process, which may give the provider's later-filed 
application for 6 GHz spectrum priority over the Tribe's partner's 
earlier-filed application. The Tribe apparently must now fight yet 
another battle with the FCC. NPM urges the Committee to consider and 
place in the record the following article and the July 16, 2019, House 
testimony of Ms. Mariel Triggs: https://www.npr.org/2019/09/16/
759908026/most-isolated-tribe-in-continental-u-s-gets-broadband https:/
/energycommerce.house.gov/sites/democrats.energycommerce.house.gov/
files/documents/2_Testimony_Triggs%20%28update%29_0.pdf
---------------------------------------------------------------------------
    In the face of those obstacles, some Tribes try to muddle through 
by cobbling together systems relying on unlicensed wireless spectrum 
never intended and technically unsuitable for broadband use. Unlicensed 
spectrum generally does not support reliably the bandwidth and low 
latency needed to stream and exchange the volume of data and content 
typically used in the modern Internet environment. Moreover, use of 
unlicensed spectrum can be a crowded field, and subject to interference 
from other users, with no legal or practical recourse. As the GAO 
correctly concluded, unlicensed spectrum is no substitute for 
interference-protected, exclusively licensed wireless spectrum in 
building and deploying sustainable networks providing universal 
broadband service.
    But, as GAO also notes, although the Commission has proposed 
adopting a Tribal priority for licensed broadband spectrum in Indian 
country to promote primary interference-protected licensure to Tribal 
entities, \12\ it has largely failed to follow through in most 
frequency bands used for wireless broadband, and, where it has done so, 
it has imposed unrealistically short deadlines on Tribal priority 
applicants. \13\ The GAO also identified secondary market failures that 
make Tribes' reliance on engagement and arrangements with other 
wireless spectrum licensees and service providers, such as service 
contracts or leases, an unreliable pathway to meaningful rapid progress 
in bridging the Tribal digital divide. These failures are promoted by 
the FCC's failure to collect and mandate sharing with Tribes accurate 
and complete data as to the true state of broadband access on Tribal 
lands and possible availability of unused spectrum over such lands that 
would put Tribal entities in a far better and fairer bargaining 
position with providers than they are now.
---------------------------------------------------------------------------
    \12\ In the Matter of Improving Communications Services for Native 
Nations by Promoting Greater Utilization of Spectrum over Tribal Lands, 
Notice of Proposed Rulemaking 26 FCC Rcd 2623 (2011).
    \13\ 2018 GAO --Tribal Access to Spectrum, at 20-22. One exception 
is that in the 2.5 GHz rulemaking, the FCC adopted in July 2019 a 
Tribal priority filing window for currently unlicensed 2.5 GHz spectrum 
on rural tribal lands in which the applicant tribe has a substantial 
local presence. FCC, Report & Order, Transforming the 2.5 GHz Band, FCC 
No. 19-62, Paragraphs 47-65 (July 11, 2019). That order also eliminated 
restrictions limiting licensees of that spectrum only to educational 
and tribal entities, and the ``educational use'' restrictions that 
formerly applied, effectively ``commercializing'' the band. The 
Commission will soon hold an ``overlay'' auction where currently 
unlicensed EBS spectrum not assigned via a Tribal priority application 
will be auctioned to the highest bidder on a county-by-county basis. 
Id. Paragraphs 75-99. As a practical matter, underserved Tribes will 
not be able to take advantage of the 2.5 GHz filing priority. NPM 
believes that the short Tribal priority ``outreach'' and filing 
``windows'' prescribed by the FCC, and its inexplicable decision to 
require Tribal priority licensees to build out systems twice as fast as 
non-Tribal auction-winner licensees, will limit Tribes' practical 
abilities to solve complex technical challenges, obtain necessary grant 
and other funding, form partnerships, and devise and implement 
solutions in sufficient time to leverage the 2.5 GHz Tribal priority. 
See also note 11 and references.
---------------------------------------------------------------------------
    IV. National Lifeline Assoc. v. FCC: FCC'S Policies are Sometimes 
Worse Than Ineffective
    We, Tribes and Tribal citizens alike, have reached the point where 
a laissez-faire approach to enforcing meaningful engagement and 
information-sharing by broadband service providers is just not good 
enough. That approach has done little to incentivize or require non-
Tribal wireless licensees and USF funding recipients to deploy quality 
broadband service in underserved Tribal areas. We are also past the 
point where we can tolerate indifference to the known problem of 
inadequate Tribal broadband access as not being ``bad enough'' to 
galvanize real action. Further, the FCC can no longer take actions that 
defy the ``facts on the ground,'' and make the problems worse.
    For example, in 2017 the FCC altered its ``Tribal Lifeline program 
regulations to limit the availability of subsidies only to services 
provided by telecommunications carriers that utilize their own fixed or 
mobile wireless facilities, excluding carriers that resell the service 
of others, and to limit the subsidies only to persons residing on 
``rural'' Tribal lands. These restrictions had the perverse effect of 
discouraging, not promoting, greater broadband service availability in 
Tribal communities.
    Earlier this year, the U.S. Court of Appeals for the District of 
Columbia struck down these rules, holding that they were arbitrary and 
capricious, in that the FCC failed to offer any reasoned explanation 
for the policy change supported by evidence in the rulemaking record. 
\14\ The Court explained that the FCC decision simply ignored evidence 
of real-world market conditions facing Tribal broadband users:
---------------------------------------------------------------------------
    \14\ National Lifeline Association v. FCC, No. 18-1026 (D.C. Cir. 
Feb. 1, 2019) https://www.cadc.uscourts.gov/Internet/opinions.nsf/
8E6B91FC5437D2D9852583940053BC87/$file/18-1026.pdf.

         The Commission's decision evinces no consideration of the 
        exodus of facilities-based providers from the Tribal Lifeline 
        program. Neither does it point to evidence that banning 
        resellers from the Tribal Lifeline program would promote 
        network buildout. Nor does it analyze the impact of the 
        facilities requirement on Tribal residents who currently rely 
        on wireless resellers. Further, the Commission ignored that its 
        decision is a fundamental change that adversely affects the 
        access and affordability of service for residents of Tribal 
        lands. Similarly, in adopting the Tribal Rural Limitation, the 
        Commission's decision evinces no consideration of the impact on 
        service access and affordability. Its decision does not examine 
        wireless deployment data related to services to which most 
        Tribal Lifeline recipients subscribe. \15\
---------------------------------------------------------------------------
    \15\ Id., at 3.

V. The Way Forward--The Coming 5G Revoluton and Urgent Need for 
        Legislation
    Currently, as a primary focus, the FCC is plunging headlong in a 
race to free up and auction to the highest bidders, spectrum suitable 
for next-generation 5G mobile telecommunications services. \16\ 5G 
promises bandwidth and latency rates far superior to existing 
technologies, and widespread deployment of mobile 5G service in Tribal 
lands and communities would certainly help close the digital divide. 
But unless the barriers and obstacles already recognized by this 
Committee, GAO, and the FCC itself are addressed, Tribal communities 
are unlikely to enjoy the benefits of this promising technology, and 
the gap in availability and quality of service will only grow ever 
wider. If the FCC's pattern of footdragging and neglect continues, it 
is almost certain that Tribal communities will simply be left behind in 
the rapidly-approaching 5G revolution. The FCC has displayed scant 
regard for the interests of Tribes and Native peoples in its rush to 
deploy 5G thus far, and there is little reason to think this will 
change absent Congressional action. \17\
---------------------------------------------------------------------------
    \16\ https://www.fcc.gov/5G.
    \17\ On August 9, 2019, in United Keetoowha Bands of Cherokee 
Indians in Oklahoma v. FCC, No. 18-1129 (D.C. Cir. Aug. 9, 2019) the 
U.S. Court of Appeals overturned a 2018 FCC order designed to 
accelerate wireless 5G broadband deployments by eliminating National 
Historic Preservation Act and National Environmental Policy Act review 
of proposed wireless broadband construction projects' impacts on sites 
of environmental, religious and cultural importance to federally-
recognized Indian tribes. The Court found that FCC acted arbitrarily 
and capriciously in failing to justify its conclusion that small cell 
deployments pose little to no cognizable religious, cultural, or 
environmental risk. https://www.narf.org/nill/documents/20190809fcc-
decision.pdf.
---------------------------------------------------------------------------
    For these reasons, NPM strongly supports the efforts of Senator 
Udall and other members of this Committee to introduce and press for 
adoption of legislation to remove the barriers caused by broadband 
service market failure and the FCC's inadequate efforts to mandate and 
promote meaningful solutions. Such legislation should reflect and 
implement GAO's recommendations in its 2018 reports. It should:

  <bullet> Mandate a dedicated Tribal Broadband Fund within the USF, 
        eliminate the ETC eligibility requirement for Tribal 
        applications and require the FCC to create a streamlined 
        application process;

  <bullet> Mandate dedicated Tribal Broadband funding within the RUS, 
        and require USDA to eliminate or reduce for Tribal entities 
        burdensome and impractical application and eligibility 
        requirements for RUS funding;

  <bullet> Require the FCC to improve data collection on Tribal lands, 
        develop a formal process for Tribal challenges to and review of 
        carrier reported data, and review and improve its Tribal 
        Government Engagement policies to remove existing barriers and 
        disincentives to meaningful engagement and information-sharing;

  <bullet> Require the FCC to implement Tribal priority application 
        filing windows for Tribal lands in all wireless spectrum 
        license auctions, with realistic application and build-out 
        deadlines;

  <bullet> Mandate a National Broadband Advisory Council designed to 
        set an agenda that ensures effective communication and 
        coordination among Federal agencies and to promote Tribal 
        participation in federal decisions and policies regarding 
        broadband deployment and adoption across Indian Country, 
        including (without limitation) in connection with:

            --Proceedings related to the FCC National Broadband Plan 
        and the nation's digital divide;

            --Identifying relevant federal funding information and 
        mechanisms in order to maximize Tribal opportunities for 
        broadband deployment and adoption;

            --Taking actions necessary to fully implement Tribal 
        recommendations in the FCC National Broadband Plan and those 
        stemming from relevant GAO Reports;

            --Identifying opportunities for Federal agencies, Tribes, 
        broadband service providers (tribal/non-tribal) to share 
        resources related to affordable broadband deployment and 
        adoption; and

            --Strengthening, supporting and liaising with the continued 
        outreach and work of the FCC Office of Native Affairs and 
        Policy and the FCC's Native Nations Communications Task Force. 
        \18\
---------------------------------------------------------------------------
    \18\ NPM does not believe that the proposed National Broadband 
Advisory Council would duplicate or be redundant of the work of the 
FCC's OPNA or Native Nations Communications Task Force. The scope of 
the new advisory body is different--focused on multiple federal 
agencies and collaboration with Tribes to find solutions; with an 
invitation to service providers to join the circle. Indian Country is 
diverse and advisory bodies must embrace that this is not a one size 
fits all approach to addressing the digital divide. This is also an 
issue about affordability, not just infrastructure. The conversation 
needs to bring into the circle all stakeholders, public and private, 
that have the power to help close the digital divide in a substantive 
and meaningful way.
---------------------------------------------------------------------------
                                 ______
                                 
Prepared Statement of Raymond V. Ortiz, Board Member/Lead Tech, RediNet
         redinet vs incumbents--a journey of self determination
    From the onset of the BTOP Grant applications, the local incumbents 
showed quite a bit of reticence against what would later become 
RediNet.
    The tact they undertook is now familiar to many Community Owned 
Broadband organizations across the United States. In the beginning, it 
largely took the form of lobbying local law makers with the end goal 
being to have them speak to the Senate and Congressional delegations in 
order to discourage support for RediNet BTOP/ARA application. In 
addition, they have tried with moderate success to have laws enacted 
which prohibit competition from a Community Broadband Network. In New 
Mexico this took the form of introduction of bills which outright 
attempted to create this prohibition and others in which the language 
was couched to create disadvantages for entities such as RediNet 
affecting funding availability.
    On the federal level, they have lobbied the FCC and curried favor 
via false reporting of service delivery and coverage. This affects 
funding for smaller community owned broadband entities which do not 
have the budget to lobby or have such small areas of coverage that they 
are largely ignored in funding opportunities. This practice is starting 
to finally be looked at more closely by lawmakers however, many of 
these folks often lack the understanding of terminology and business 
practices which are used to deceive both the end user and the 
lawmakers. It is necessary to explain this process in a little more 
detail so these statements make sense to the reader.
    Provisioning is the term used for the fastest connection 
possibility to an end user based on equipment configuration. This term 
is deceiving because the end user thinks that what they are buying is 
broadband service at those speeds. What they are actually paying for is 
access to those speeds, not necessarily delivery of that speed, 
particularly under load. The fine print in the service agreement 
indicates ``up to'' the provisioned speed not sustained delivery of 
those speeds. In essence the equipment can handle those speeds but the 
final delivery depends on many factors such as backhaul speeds, 
oversubscription rates and physical plant capability. The discrepancy 
between provisioning and service delivery allows service providers to 
maximize profit while minimizing expenses to the detriment of the 
consumer who is paying for something they aren't getting. Incumbents 
bait the offering by indicating a low price for a certain speed which 
they cannot or do not deliver.
    In our area this has historically been a chronic problem. So much 
so that some communities have united and tried to sue the incumbent for 
lack of or poor service.
    Another long term problem is that the incumbents have made it 
extremely difficult for organizations other than their own to access 
the fiber paid for by federal and state dollars. This allows them to 
monetize the asset and maximize profits. If the federal government is 
investing in infrastructure, state and local governments should be 
given priority access for transport of internal noncommercial traffic 
on dark fiber. This would provide cost effective solutions for critical 
traffic. Why should state and local governments pay for transport on 
fiber paid for by tax dollars?
    By keeping second party entities off the fiber networks, the 
incumbents have in effect privatized public resources. This slows the 
progress of fiber rollouts or stops new builds altogether in large 
geographical areas which are rural in nature. This is contrary to the 
national goal of fiberizing the nation.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jon Tester to 
                             Andrew Von Ah
    Question 1. According to the GAO report, participating in the 
secondary market is one of the few ways Tribes can access licensed 
spectrum. How do we make sure that Tribes know about the licensed and 
unlicensed spectrum on their lands? Who should be responsible for 
educating Tribes about ways they can access spectrum?
    Answer. In our November 2018 report, we recommended that the 
Federal Communications Commission (FCC) should make information on 
spectrum-license holders more accessible and easy to understand for 
interested parties, including tribal entities, to promote their ability 
to purchase or lease spectrum licenses from other providers. \1\ Given 
that most of the spectrum allocated for commercial use has already been 
assigned through spectrum auctions and other mechanisms to private 
providers, it is important for tribes to know who owns the spectrum 
licenses over their lands. All of the tribal associations we contacted 
for our review confirmed that there are unused spectrum licenses over 
tribal lands that could present opportunities for tribal entities to 
obtain spectrum through the secondary market. However, the tribal 
entities we contacted stated that it is difficult to determine who 
holds spectrum licenses and many tribal entities were unaware of the 
possibility of accessing licensed spectrum through a secondary market 
transaction prior to our contacting them. In response to our 
recommendation, FCC's Chairman noted that FCC is currently engaged in a 
multi-year project to modernize the Universal Licensing System (ULS), 
transitioning to a new platform that will provide more consistent 
performance, easier access to information, and enhanced functionality. 
The Chairman said the Office of Native Affairs and Policy will continue 
its outreach and educational efforts with tribal entities.
---------------------------------------------------------------------------
    \1\ GAO, Tribal Broadband: FCC Should Undertake Efforts to Better 
Promote Tribal Access to Spectrum, GAO-19-75 (Washington, D.C.: Nov. 
14, 2018).
---------------------------------------------------------------------------
    As the expert agency for commercial and nonfederal spectrum use, 
FCC should be responsible for educating tribes about ways they can 
access spectrum. Congress has delegated responsibility for regulating 
commercial and nonfederal spectrum use to FCC, and FCC has asserted 
that its authority to regulate nonfederal spectrum use applies to the 
spectrum over tribal lands. Furthermore, FCC has recognized its own 
general responsibility to tribes. In FCC's policy statement on 
establishing its relationship with tribes, FCC stated that it 
recognizes that the federal government has a fiduciary responsibility 
in its dealings with tribes and has a longstanding policy of promoting 
tribal self-sufficiency and economic development. \2\
---------------------------------------------------------------------------
    \2\ Statement of Policy on Establishing a Government-to-Government 
Relationship with Indian Tribes, Policy Statement, 16 FCC Rcd 4078 
(2000).

    Question 2. Is the Office of Native Affairs and Policy adequately 
staffed to track and communicate data on spectrum to Tribes?
    Answer. Although we did not assess the adequacy of the Office of 
Native Affairs and Policy's (ONAP) staffing, we did review ONAP's 
efforts and ask tribal representatives about their views of ONAP. At 
the time of our review in November 2018, ONAP officials told us that 
they had conducted 21 training and consultation workshops for tribal 
entities on broadband and telecommunications issues since 2012, where 
spectrum had been discussed. These officials also told us that they 
communicate with tribal entities prior to when FCC holds auctions or 
when implementing regulatory actions or policies that will affect 
tribal governments and spectrum over their lands. However, it is not 
clear that ONAP has a systematic approach for tracking and 
communicating spectrum data to tribes. We found that only 9 of the 16 
tribal entities we interviewed that were using wireless technologies 
had received outreach from FCC on spectrum-related issues. Furthermore, 
10 of the 16 tribal entities said that more outreach or training would 
be useful and 2 told us they had not received any outreach from FCC.
    We also found that ONAP issued a report in 2012 to provide FCC with 
a review of its work with tribal governments and organizations, 
including information on its tribal broadband efforts, priorities, and 
tribal consultations. Among other things, the report included case-
study information on tribal entities' efforts to access spectrum. 
Although the report stated that this would be the first of such annual 
reporting, this is the only report that ONAP has issued on tribal 
issues.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Steve Daines to 
                             Andrew Von Ah
    Question 1. Mr. Von Ah your report mentions that unlicensed 
spectrum can be effectively used by tribes to connect their community 
members, but because they are unlicensed there can be drawbacks, 
including interference. I recently helped secure a pilot program with 
the Microsoft Airband Initiative for TV White Space technology in 
Montana, and last year they announced they will be using this new tech 
to connect the CSKT of the Flathead Nation in northwest Montana. How 
can we better use this unlicensed spectrum to connect tribal areas 
while also reducing interference?
    Answer. The TV white space spectrum adds to the spectrum available 
to tribal entities and has some technical advantages over other 
unlicensed spectrum bands. For example, signals can travel greater 
distance with less power and do not require direct line-of-sight. 
However, TV white space spectrum is still unlicensed spectrum and 
presents limitations that we noted in our November 2018 report, 
including potential for interference and limited bandwidth capacity, 
which causes lower speeds, high latency, and limits the number of 
households that can be served. \1\ In addition, stakeholders we spoke 
with said that equipment needed to access TV whitespace spectrum is 
expensive and less available, which may prevent many tribal entities 
from using the white space spectrum. At the time of our review, none of 
the entities we interviewed said that they used TV white space 
spectrum.
---------------------------------------------------------------------------
    \1\ GAO, Tribal Broadband: FCC Should Undertake Efforts to Better 
Promote Tribal Access to Spectrum, GAO-19-75 (Washington, D.C.: Nov. 
14, 2018).
---------------------------------------------------------------------------
    Although we did not assess actions taken by FCC after our report 
was issued in November 2018, we understand that FCC has adopted an 
order in March 2019, to improve the accuracy and reliability of the 
fixed white space device data recorded in its databases and to assure 
that the potential for these devices to cause interference to protected 
services is minimized. \2\ In the order, FCC increased the allowable 
above ground antenna height and power for fixed white space devices in 
less congested areas to help improve wireless broadband service in 
rural and other underserved areas. In May 2019, Microsoft requested 
that FCC make further improvements to its TV white space rules, such as 
increasing the allowable power limits and antenna heights for fixed 
white space devices in rural areas, to address what Microsoft called 
``real-world barriers'' that companies face in trying to use white 
space technologies in rural areas.
---------------------------------------------------------------------------
    \2\ FCC 19-24.
---------------------------------------------------------------------------
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                           Donald K Stockdale
    Question 1. The FCC maintains the Universal Licensing System (ULS) 
to identify spectrum-license holders on Tribal lands for the public. 
The GAO found, and the FCC agreed, that the ULS is ineffective and the 
FCC needs to do more to help Tribes identify unused spectrum. The FCC 
noted it is embarking on a multi-year project to modernize the ULS. 
Tribes will be reliant on this ineffective system to identify unused 
spectrum, while ensuring it meets the requirements of the Tribal 
priority window for 2.5 GHz spectrum. Did the ineffectiveness of the 
ULS tool factor into the FCC's planned time-line for accepting 
applications for unlicensed 2.5 GHz spectrum?
    Answer. I agree that the Universal Licensing System (ULS) could be 
more user-friendly, and Chairman Pai has made modernization of the ULS 
a priority. The FCC currently is engaged in a multi-year project to 
modernize the ULS and make it more flexible, capable, reliable, and 
user-friendly. Indeed, we have taken into account the challenges Tribal 
entities identified in navigating the existing ULS tool and are 
developing new Tribal entity-specific tools to assist Tribal entities 
in navigating the application process, including mapping tools to help 
Tribal entities in determining where there is available spectrum over 
Rural Tribal Lands.

    Question 2. In the ``Transforming the 2.5 GHz Band Report and Order 
(FCC 19-62)'', the FCC noted that, ``most Tribal entities favor a 
geographic license area that tracks reservation boundaries''. Several 
Tribes also advocated for including off-reservation land in the Tribal 
priority window. Ultimately, FCC rejected these recommendations and 
instead opted to utilize the existing process because it ``would be 
efficient and facilitate prompt processing of Tribal priority 
applications''. Given the recognized Tribal digital divide, how did FCC 
determine that the expediency of processing applications outweighed the 
need to ensure greater broadband participation and access for Tribal 
communities?
    Answer. The Commission did not reject the recommendation to allow 
Tribal entities to apply for licenses tracking reservation boundaries, 
nor did the Commission reject the call for including off-reservation 
land in the Tribal priority window. In the Report and Order, the 
Commission adopted the broad definition of Tribal lands contained in 
Part 54 of its rules and agreed with commenters to include off-
reservation lands in the Tribal priority window under certain 
circumstances. (R&O para. 54). In fact, the Commission stated that it 
will include in the Tribal priority window Rural Tribal Lands on-
reservation in all situations and off-reservation lands in certain 
situations. (R&O para. 52). Moreover, under the Commission's decision, 
the available license areas available in the Tribal window will track 
the boundaries of individual Tribal lands that otherwise meet the 
requirements of the Commission's rules. We note that the Commission 
acknowledged the issue that licensing reservation-based Tribal lands 
will, in some cases, result in irregularly shaped licenses that will 
complicate the geographic landscape for other 2.5 GHz licensees. (R&O 
para. 55). Nevertheless, the Commission stated, ``we do not see this 
potential complication as a reason not to make all reservation lands 
available for the Tribal Priority Window.'' (R&O para. 55).

    Question 3. Please outline the Tribal consultation steps the FCC 
has taken to determine what types of documentation Tribes must submit 
in order to be granted 2.5 GHz spectrum under the Tribal priority 
window.
    Answer. The Commission conducted a robust notice and comment 
process--including comments from 22 Tribal entities or organizations 
associated with Tribes--and consulted with interested Tribal Entities 
and stakeholders, such as Chairman Pai's May 28, 2019 meeting with 
Governor Bill Anoatubby, Secretary of Commerce Bill Lance, and Under 
Secretary Subsidiary Services and Support Clifford Agee at the 
Chickasaw Nation Headquarters in Ada, Oklahoma. As a result, the 
Commission adopted simplified documentation requirements for applicants 
under the Tribal Priority Window. Under the Commission's rules, 
applicants for the Tribal Priority Window must demonstrate: (1) that 
the applicant is a federally recognized American Indian Tribe or Alaska 
Native Village or an entity that is owned and controlled by a federally 
recognized Tribal entity or a consortium of federally recognized Tribal 
entities; (2) that the applicant is applying for a license on Rural 
Tribal Land; and (3) that the applicant has a local presence on the 
Rural Tribal Land for which it is applying.
    Much of the information required to show that a Tribal entity is 
eligible to participate in the Tribal Priority Window is readily 
available to them. For instance, a Tribal entity must show that it is 
on the list of Tribal entities recognized by and eligible for funding 
and services from the U.S Bureau of Indian Affairs most recently 
published in the Federal Register. Tribal entities that apply for a 
license on their own Rural Tribal Land will be able to demonstrate both 
that the land is Tribal Land and that they have a local presence in 
that area. To show that the Tribal Land for which it seeks a license is 
Rural, a Tribal entity may use U.S. Census Bureau data that can be 
found at https://www2.census.gov/geo/maps.
    Commission staff are engaged currently in nationwide outreach 
regarding the Tribal Priority Window and the application process. Staff 
also are developing tools to assist Tribal entities with both 
identifying available spectrum and navigating the application process. 
Commission staff also will be available to work with applicants 
individually to ensure that they have submitted documentation necessary 
to meet all of the required elements.

    Question 4. Will Tribes be required to provide documentation about 
their ability to meet substantial service requirements in order to be 
granted 2.5 GHz spectrum under the Tribal priority window? If so, 
please summarize the information FCC will require and outline steps the 
FCC has taken to consult with Tribes.
    Answer. No, Tribal entities will not be required to provide 
documentation that they will be able to meet the performance 
requirements when they apply for a license in the Tribal Priority 
Window. Consistent with the Commission's normal practice, the 
Commission will require Tribal licensees to demonstrate compliance with 
the buildout requirements at the applicable deadlines.

    Question 5. Please articulate the rationale the FCC used to justify 
requesting the Office of Management and Budget grant an emergency 
approval of the Paperwork Reduction Act, specifically in adherence to 
written determination requirement of 5 CFR  1320.13.
    Answer. The Commission requested expedited review to make valuable 
mid-band spectrum available for the mobile services on which consumers 
increasingly rely and which is critical to maintain American leadership 
in the next generation of wireless connectivity. The Commission stated 
that the spectrum will be available to members of federally recognized 
American Indian Tribes and Alaska Native Villages on Rural Tribal 
Lands, many of which have lacked meaningful access to wireless 
communications services. The Commission indicated that it wanted to 
auction spectrum in the 2.5 GHz band in 2020. Requiring the Commission 
to seek OMB's approval for this collection under the regular PRA 
processing procedures would significantly delay the provision of 
service on Tribal lands. The Commission requested that OMB approve only 
one public notice comment period of 30 days instead of the standard two 
comment periods of 60 and 30 days for OMB Control Number 3060-1094. The 
intent was to allow more time for the Tribal Priority Window.

    Question 6. The FCC estimates that only eight Tribal entities will 
file for access to 2.5 GHz EBS spectrum under the Tribal priority 
window. This estimate is low and will not address the digital divide 
within Indian Country. The FCC has stated on multiple occasions that 
Tribal Nations and bridging that gap are a priority. How did FCC come 
up with this number? Will FCC take this estimate in to consideration 
and take aggressive steps to ensure greater Tribal participation?
    Answer. In its Paperwork Reduction Act request, the Commission 
estimated that 24 Tribal entities or consortia of Tribal entities would 
apply during the Tribal Priority Window based on the number of Tribal 
entities that commented in the rulemaking proceeding. In calculating 
the number of ``annual'' filings, PRA rules require that federal 
agencies divide the estimate over three years, for an estimate of eight 
annual filings. The Commission is taking aggressive steps to encourage 
greater participation in the Tribal Priority Window.

    Question 7. Does the FCC have any plans, besides the multi-year 
effort to update ULS, to produce easily accessible and understandable 
maps of available 2.5 GHz spectrum?
    Answer. Yes; the FCC is developing a Tribal Mapping Tool 
specifically for the 2.5 GHz Tribal Priority Window application 
process; this tool will present easily accessible and understandable 
maps of Rural Tribal Lands and existing spectrum holdings over those 
lands. The tool will include the ability to link to ULS records to 
obtain more detailed information on any incumbent licensees over those 
lands.
    Question 7a. If so, will this be completed before the Tribal 
priority window closes? If not, is FCC considering extending the Tribal 
priority window?
    Answer. The Tribal Mapping Tool will be completed before the Tribal 
Priority Window OPENS, and FCC will provide training, tutorials, and 
support for Tribal entities using this tool before and during the 
application window.

    Question 8. How many Tribes currently have 2.5 GHz spectrum 
available over their lands? How did the FCC conduct its analysis?
    Answer. 347 Tribes have some 2.5 GHz white space spectrum available 
over the entire eligible area; 314 have at least 50 megahertz of 
contiguous spectrum available over the entire eligible area. Our 
initial analysis is part of the current development of a Tribal Mapping 
Tool that will provide each of these Tribal entities with a view of 
whether and to what extent spectrum is available in each of the three 
channel bands over their respective Rural Tribal Land. This tool should 
be available in early November, roughly 60 days before the opening of 
the application window, and will remain available, along with other 
information, support, tutorials, and tools being developed to assist 
Tribal entities, throughout the application window.

    Question 9. FCC 19-62 outlines a 90-day Tribal education process 
and a 60-day window for applications. How will the FCC communicate with 
the hundreds of Tribal Nations that may be eligible to apply, 
especially those with limited or no Internet access?
    How will the Commission ensure that all eligible rural Tribal 
Nations are made aware of this opportunity? Please provide the specific 
dates and locations of upcoming workshops.
    Answer. In paragraph 62 of the Report and Order (FCC 19-62), the 
Commission noted that it had received comments proposing a 90-day 
notice period prior to the opening of the priority filing window with a 
60-day window for the filing of applications. Rather than adopting the 
suggestion of the commenters and limit the window to 60 days, the 
Commission directed its Wireless Telecommunications Bureau to announce 
procedures for the Tribal Priority Window through one or more Public 
Notices and other appropriate outreach to potentially eligible Tribal 
applicants. As noted above, emergency PRA approval was sought to 
lengthen the period of the Tribal Priority Window.
    WTB, in partnership with the FCC's Office of Native Affairs and 
Policy (ONAP), currently is conducting outreach to Tribal entities and 
is providing notice of the upcoming window. WTB and ONAP also are 
working on the IT development necessary to provide Tribal entities with 
additional tools to assist with navigating the Tribal Priority Window. 
While the application window, which should open in early 2020, will be 
announced via Public Notice, the FCC also will use a variety of 
methods--email, phone calls, and/or direct mail--to contact Rural 
Tribal Nations about this opportunity, to ensure that all eligible 
Tribal entities receive this information, including those with limited 
or no Internet access.
    Commission staff also have participated in a number of workshops 
recently to inform Tribal entities of this opportunity, including:

  <bullet> July 18--Midwest Alliance of Sovereign Tribes Conference 
        (Mt. Pleasant, MI)

  <bullet> July 31--Native American Development Corp. Annual Conference 
        (Billings, MT)

  <bullet> Aug. 21--22--Tribal Communications Workshop (Billings, MT)

  <bullet> Sept 23--FCC Intergovernmental Advisory Committee

  <bullet> Sept. 28--Department of the Interior Tribal Broadband Summit 
        (Washington D.C.)

  <bullet> Oct. 8--Affiliated Tribes of Northwest Indians Annual 
        Convention (Suquamish, WA)

  <bullet> Oct 9--Internet Society Indigenous Connectivity Webinar

  <bullet> Oct. 17-19--Alaska Federation of Natives

  <bullet> Oct. 20-FCC Tribal Communications Workshop (Albuquerque, NM)

  <bullet> Oct. 22--National Congress of American Indians Conference 
        (Albuquerque, NM)

  <bullet> Oct. 23--Alaska Telecom Association Tech Showcase--Board 
        Meeting (Anchorage, AK)

    As of October 24, 2019, Commission staff are scheduled to 
participate in the following upcoming workshops, and are actively 
working with Tribal entities to schedule additional events:

  <bullet> Nov. 5--FCC Native Nations Communications Task Force

  <bullet> Nov. 12--TribalNet Conference (Nashville, TN)

  <bullet> Nov. 19-20--FCC Tribal Workshop (Blue Lake, CA)

  <bullet> Early December--Tribal focus groups on Tribal Mapping Tool 
        performance

  <bullet> December--Online webinar

    In addition, Commission staff have also set up a special mailbox 
for inquiries about the Tribal Priority window: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="34664146555860465d565558635d5a505b43745257571a535b42">[email&#160;protected]</a>, and they have developed the attached 
informational handout with references to helpful information and 
contacts with the Commission to assist Tribal Entities. Commission 
staff intend to update this handout periodically as new information and 
tools become available.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Steve Daines to 
                           Donald K Stockdale
    Question 1. Chairman Pai has made it a priority to close the 
digital divide and I share that passion with him. One way he can 
continue making a major impact is having strong buildout requirements 
on carriers. Recently, I helped secure unused spectrum for a large 
national carrier with their promise that they will build a robust 
network on the Fort Peck Reservation. According to recent maps, they 
are honoring that commitment and I look forward to seeing Fort Peck and 
Montana's other tribal areas continue to grow in 4G and 5G coverage. 
How can the FCC better use buildout requirement to connect rural and 
tribal communities in Montana?
    Answer. Construction obligations have functioned as a core part of 
the Commission's wireless policy for decades. The FCC's construction 
obligations serve the important purpose of ensuring that scarce 
spectrum resources are put to use and deployed in a manner that serves 
all communities. Indeed, the Commission's construction obligations 
promote the Commission's goal of making spectrum ``available, so far as 
possible, to all the people of the United States'' regardless of where 
they live. 47 U.S.C.  151.
    As the Commission's rules specify, absent a specific provision in 
our rules to the contrary, ``if a licensee fails to commence service or 
operations by the expiration of its construction period or to meet its 
coverage or substantial service obligations by the expiration of its 
coverage period, its authorization terminates automatically (in whole 
or in part as set forth in the service rules), without specific 
Commission action, on the date the construction or coverage period 
expires.'' 47 CFR  1.946(c).
    The FCC has been clear that requests to extend construction 
obligations will not be routinely granted. The Commission's rules and 
case law impose limits on the types of arguments and factual 
circumstances that would qualify a licensee for an extension. For 
example, the Commission's rules do not contemplate extensions of 
construction deadlines for licensees that fail to meet construction 
obligations because of miscalculations or erroneous predictions about 
such factors as costs, demand, developments in the market, or timing 
and success in obtaining permissions that may be necessary for 
construction. Rather, the Commission has always expected licensees to 
factor in these considerations from the start because construction 
obligations are the building blocks to making available service that 
puts scarce spectrum resources to use. When a licensee fails to deploy 
on a timely basis, the Commission holds the licensee accountable in 
accordance with its rules. Specifically, under Section 1.946(e) of the 
Commission's rules, extensions of the time period for meeting these 
construction and service requirements are permitted only in two 
situations--either ``involuntary loss of site'' or ``other causes 
beyond [a licensee's] control.'' 47 CFR  1.946(e)(1).

    Question 2. The FCC's Office of Native Affairs and Policy, or ONAP 
(oh-nap) is supposed to be a resource for tribal nations, but I have 
heard the FCC could be using the office in a much more effective way. 
What is the FCC doing to better promote ONAP and how can this position 
be better utilized to connect with tribes in Montana?
    Answer. ONAP, together with the Wireless Telecommunications and 
Wireline Competition Bureaus, have developed best practices regarding 
the Tribal engagement process. Last updated in 2012, the Commission 
anticipated that its Tribal engagement obligation and guidance would 
evolve over time based on initial implementation experiences and 
feedback of both Tribal governments and communications providers. On 
October 21, the Commission's Consumer and Governmental Affairs Bureau 
(CGB) released a Public Notice requesting comment on the effectiveness 
of its Tribal engagement guidance. (DA 19-1055). CGB seeks to assess 
the effectiveness of its Tribal engagement guidance based on the 
practical experiences of Tribes and carriers, to ensure the effective 
exchange of information that will lead to a common understanding 
between Tribal governments and communications providers on issues such 
as the deployment and improvement of communications services on Tribal 
lands. The Commission recognized in the Public Notice that Commission 
staff has heard of anecdotal problems with providers' efforts to 
initiate engagement with Tribal leaders, and it sought comment on 
specific steps the Commission can take or recommend, to assist parties 
with their engagement efforts. Comments in response to the Public 
Notice are due December 5, and reply comments are due January 6, 2020.
    Moreover, WTB and ONAP currently are conducting outreach to Tribal 
entities and providing notice not only of the upcoming Tribal Priority 
Window for 2.5 GHz spectrum but also opportunities to use 3.5 GHz 
spectrum. WTB and ONAP also are working on the IT development necessary 
to provide Tribal entities with additional tools to assist with 
navigating the 2.5 GHz Tribal Priority Window. While the application 
window, which should open in early 2020, will be announced via Public 
Notice, the FCC also will use a variety of methods--email, phone calls, 
and/or direct mail--to contact Tribal entities about these 
opportunities, in particular to ensure that all eligible Tribal 
entities receive information about the 2.5 GHz Tribal Priority window, 
including those with limited or no Internet access.
    Commission staff also have participated in a number of workshops 
recently to inform Tribal entities of this opportunity, including:

  <bullet> July 18--Midwest Alliance of Sovereign Tribes Conference 
        (Mt. Pleasant, MI)

  <bullet> July 31--Native American Development Corp. Annual Conference 
        (Billings, MT)

  <bullet> Aug. 21-22--Tribal Communications Workshop (Billings, MT)

  <bullet> Sept 23--FCC Intergovernmental Advisory Committee

  <bullet> Sept. 28--Department of the Interior Tribal Broadband Summit 
        (Washington D.C.)

  <bullet> Oct. 8--Affiliated Tribes of Northwest Indians Annual 
        Convention (Suquamish, WA)

  <bullet> Oct 9--Internet Society Indigenous Connectivity Webinar

  <bullet> Oct. 17-19--Alaska Federation of Natives

  <bullet> Oct. 20--FCC Tribal Communications Workshop (Albuquerque, 
        NM)

  <bullet> Oct. 22--National Congress of American Indians Conference 
        (Albuquerque, NM)

  <bullet> Oct. 23--Alaska Telecom Association Tech Showcase--Board 
        Meeting (Anchorage, AK)

    As of October 24, 2019, Commission staff are scheduled to 
participate in the following upcoming workshops during the remainder of 
2019, and they are actively working with Tribal entities to schedule 
additional events:

  <bullet> Nov. 5--FCC Native Nations Communications Task Force

  <bullet> Nov. 12--TribalNet Conference (Nashville, TN)

  <bullet> Nov. 19-20--FCC Tribal Workshop (Blue Lake, CA)

  <bullet> Early December--Tribal focus groups on Tribal Mapping Tool 
        performance

  <bullet> December--Online webinar

    In addition, Commission staff have also set up a special mailbox 
for inquiries about the Tribal Priority window: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2e7c5b5c4f427a5c474c4f427947404a41596e484d4d00494158">[email&#160;protected]</a>, and they have developed the attached 
informational handout with references to helpful information and 
contacts with the Commission to assist Tribal Entities. Commission 
staff intend to update this handout periodically as new information and 
tools become available.
    Commission staff is designing and developing a dedicated webpage 
specifically to assist Tribal entities in applying for licenses in the 
Tribal Priority Window; this webpage will provide information as well 
as access to tools, including an interactive map to assist Tribal 
entities in determining whether there is spectrum available over their 
Rural Tribal Lands.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jon Tester to 
                        Donald K. Stockdale, Jr.
    Question 1. In 2011, the FCC issued a proposed rulemaking that 
would improve Tribal Access to spectrum and was supported by Tribal 
stakeholders. Yet, the FCC still hasn't taken any steps to adopt this 
rulemaking. Why hasn't any further action been taken?
    Answer. A key proposal in the 2011 NPRM was for the FCC to create a 
Tribal licensing priority for unassigned spectrum. Earlier this year, 
the FCC established a priority filing window for Tribal Nations to 
obtain licenses for unassigned 2.5 GHz spectrum on rural tribal lands. 
This priority filing window will offer an opportunity for many Tribal 
Nations to provide advanced wireless and broadband services in their 
communities. Recently, the Wireless Telecommunications Bureau announced 
that the priority window will be open from February 3, 2020, to August 
3, 2020. The agency continues to work with Tribal Nations to facilitate 
their participation in this 2.5 GHz priority window, as well as to 
develop other opportunities for access to communications services.

    Question 2. Is the Office of the Native Affairs and Policy 
adequately staffed to track and communicate data on spectrum to Tribes?
    Answer. Yes, we have sufficient staff within ONAP to handle tribal 
consultations, as well as to coordinate agency-wide on a range of 
issues central to our work in this area. ONAP has five full-time staff 
working on Tribal consultations and related issues. In addition, ONAP 
receives substantial daily support from an experienced Deputy Bureau 
Chief charged with primary responsibility for overseeing the office, as 
well as additional support from other Bureau-level legal advisors. 
Within the Bureau, ONAP greatly benefits from the synergies with other 
CGB offices, including routine coordination with intergovernmental 
staff in the Office of Intergovernmental Affairs and other bureau-level 
specialists. In addition, like other offices in a small agency of 1,448 
FTEs, ONAP does not work in isolation, but rather coordinates on a 
regular basis with subject-matter experts in WTB, WCB and MB, as well 
as OET, OEA and OMD on items of significant Tribal interest. These 
experts not only advise ONAP on an ongoing basis, they also partner 
with ONAP to address and conduct Tribal consultations and related 
matters. As currently structured, the office has the ability to be 
flexible in its approach and work cross-agency to obtain the best 
results for stakeholders. For example, ONAP and WTB subject-matter 
experts jointly conducted consultations related to the Commission 
proceeding that is transforming the way Educational Broadband Service 
spectrum in the 2.5 GHz band is used, resulting in the creation of a 
rural Tribal Priority Window for new licenses in this band.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jon Tester to 
                          Kimball Sekaquaptewa
    Question 1. How has the FCC consulted with Tribes and how is their 
feedback incorporated into improving spectrum availability on Tribal 
lands?
    Answer. To my knowledge, the FCC consults with tribes through 
Notices of Proposed Rulemakings (NPRM) and has assigned the Office of 
Native Affairs Policy, guided by the Native Nations Communications Task 
Force (NNCTF), to advise on policy matters. If financially able, tribes 
travel to Washington, D.C. to visit the FCC offices and submit ex parte 
filings. There are annual, regional, FCC tribal consultations that can 
be many states away. On occasion, the FCC Chairman and Commissioners 
travel to Indian Country to listen to tribal experiences and experience 
the landscape, which is an extremely powerful engagement for both 
parties. While not an FCC communication directly, tribes are supposed 
to hear about FCC subsidized deployments on their lands through the 
obligation of Eligible Telecommunication Carriers to engage with the 
Tribes they serve on an annual basis.
    The FCC recently demonstrated positive Tribal engagement when it 
established a Tribal Priority Window for licensing Educational 
Broadband Service spectrum in the 2.5 GHz band. This has included a 
substantial tribal training schedule in advance of the opening of the 
Tribal Priority Window and an attempt to build useful data mining 
tools. Additionally, the six-month window length reflects FCC 
responsiveness to the tribes' recommendation for a longer window to 
encourage increased tribal participation and success. My hope is that 
this precedent permanently sets the norm for all future spectrum 
auctions. Perhaps this could be codified through the rulemaking process 
to include a Tribal Priority Window, tribal input on window lengths and 
other process mechanics, custom data tools development, and tribal 
outreach specifications.

    Question 1a. What are ways you think this relationship can be 
improved and more collaborative?
    Answer. The FCC-Tribal relationship can be improved through a long 
and consistent track record. To further develop this path, the FCC can 
build on the positive engagement of the 2.5 GHz Tribal Priority Window 
and to implement the recommendations issued on September 18, 2019 in 
the NNCTF report titled, ``Improving and Increasing Broadband 
Deployment on Tribal Land''. The report includes unique challenges and 
nuanced approaches to working with tribes to deploy advanced 
communication infrastructure.
    Additionally, the FCC can demonstrate that the Office of Native 
Affairs and Policy is fully staffed and financially supported to 
complete the scope of its duties to develop policies to address the 
lack of adequate communication services on tribal lands, plan and lead 
outreach to increase awareness of, and participation in Commission 
initiatives, and most importantly, ensuring that native voices are 
included in the decisionmaking processes. Question the placement of 
ONAP within the FCC to ascertain whether its current placement under 
the Consumer and Governmental Affairs Bureau warrants enough authority 
to complete its mission, or whether it should be elevated within the 
FCC organizational chart.
    In light of the fact that spectrum acquisition is a complex 
regulatory process, it appears to me that success is greatly increased 
with access to specialized attorneys, consultants, and knowledgeable 
internal staff. This is an extremely high bar, and barrier to entry, 
for Tribes with limited staff and financial resources. In lieu of a 
one-time `trainings' perhaps a FCC program could be developed for 
Tribal staff at various levels, policy for Tribal leaders and 
attorneys, managing subsidies/reporting for Tribal accountants, 
business development for Tribal planners and IT departments, etc.
    The recommendations cited by the NNCTF in ``Improving and 
Increasing Broadband Deployment of Tribal Land'' provide expert Tribal 
feedback on many FCC matters. Several of the recommendations hinge on 
tribal collaboration and engagement to resolve or prevent issues with 
carriers that impinge on a tribe's ability to adequately self-govern or 
to deploy their own communication services. FCC responsive to implement 
the following recommendations acknowledge and affirm the Tribal effort 
to work with Commission to improve outcomes on Tribal lands.
Recommendations: Spectrum
    ``Spectrum auctions are costly and, as discussed above, access to a 
Line of Credit is extremely difficult for Tribes because a Tribe cannot 
collateralize federal assets. Tribes want access to spectrum over their 
lands, but simply cannot compete with commercial carriers in spectrum 
auctions. Consistent with our recommendations about broader use of 
Tribal Priorities, we recommend use of Tribal Priority windows in 
future spectrum allocation decisions.''
    ``Partitioning licensed service areas through secondary markets 
could also provide an opportunity for Tribes to gain access to 
spectrum. Commission encouragement of negotiations between spectrum 
license holders and Tribes would also be highly beneficial. Tribes also 
have difficulty gaining information on who owns spectrum licenses, 
which presents an obvious barrier to even beginning discussions. A 
process needs to be established for federal oversight of spectrum 
disaggregation and partitioning discussions or negotiations for 
subleasing. There also should be a fair leasing option when spectrum 
holders are not interested in building out but want to continue holding 
the license or other approaches such as build-or-divest.''
    ''We also support establishment of Tribal Lands Bidding Credits for 
use where spectrum is auctioned to encourage wireless carriers to serve 
Tribal lands, and giving a credit to the bid amount during auctions as 
an incentive to build out of a wireless network to underserved or 
unserved Tribal lands. Going forward, we recommend that the Commission 
include in any Tribal Bidding Credits specific, enforceable 
requirements for the scale and timing of buildout on Tribal lands, 
including giving Tribal entities more say in these matters.''
NNCTF Recommendations: Statutory Obstacles
ETC Status
  <bullet> Section 214 of the Communications Act should be amended to 
        open the role for designation of eligible telecommunications 
        carrier (ETC) status to include Tribes to better reflect the 
        sovereignty of the Tribe over Tribal lands. At the very least, 
        the ETC designation process should include consultation with 
        Tribal Nations regarding any plans to serve Tribal lands.
NNCTF Recommendations: Regulatory Barriers
Build-Out Requirements
  <bullet> Regulatory build-out requirements should be modified so that 
        Tribes are served earlier in the process rather than at the end 
        of the build-out period and build out to Tribal lands is 
        required.

  <bullet> The Commission should consider explicitly linking receipt of 
        Tribal bidding credits in USF reverse auctions by providers 
        serving Tribal lands to meeting deployment obligations on Those 
        Tribal lands.
Bidding Credits
  <bullet> Receipt of bidding credits in USF reverse auctions by all 
        providers serving Tribal lands should be explicitly linked to 
        meeting deployment obligations on those Tribal lands.

  <bullet> Going forward, we recommend that the Commission include in 
        any Tribal Bidding Credits specific, enforceable requirements 
        for the scale and timing of build-out on Tribal lands, 
        including giving Tribal entities more say in these matters. 
        Consistent with our earlier recommendation, we support equal 
        treatment of future build-out requirements for those who have 
        held spectrum for more than 10 years and have failed to build 
        out.

    Finally, the FCC can proactively address on-going, lingering, or 
non-action on issues that perpetuates notions of mistrust or neglect by 
carriers receiving FCC subsides without noticeable network upgrades or 
service improvements on Tribal lands. For instance, the FCC can 
strengthen the integrity of the annual ETC tribal meeting obligation. 
Enforcement should not allow an ETC to send a form letter to a tribe or 
to send a 400-page retracted document that can only be fullyviewed by 
signing a non-disclosure agreement. A subsidy period could begin with a 
joint plan submitted by the Tribe and carrier that includes network 
buildout timeframes and benchmarks. The annual meeting can review and 
monitor the plan. As true partners, we can design better solutions 
together.
    As a relative newcomer to FCC spectrum acquisition, I am grateful 
to have proven success and look forward to growing the number of Tribal 
deployments that utilize spectrum. I have also seen success broadband 
deployments on Tribal lands through FCC School and Libraries E-rate 
programs. I believe that these are opportunities for Tribes and that 
despite regulatory complexities forge ahead. Thank you for your 
attention to this important topic and I hope that the dialogue 
continues and the partnerships continue to grow.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jon Tester to 
                             Belinda Nelson
    Question. Consultation with Tribes is critical to improving our 
processes, and ultimately ensuring they are driving the bus on this 
issue. This empowers tribes to engage in solutions that work best for 
their communities. How has the FCC consulted with Tribes and how is 
their feedback incorporated into improving spectrum availability on 
Tribal lands? What are ways you think this relationship can be improved 
and more collaborative?

    Answer.
The Federal Communications Commission's Current Consultation with 
        Tribes
    Native American tribes know their ancestral lands like the back of 
their hands. Tribes have great affinity for certain areas that hold 
sacredness in their history. Sacredness to tribes is loosely based on 
or defined as ``where something happened''. If modern America could 
define a piece of land as sacred, it might be the land where the Twin 
Towers stood in New York City, or it could be the hallowed ground where 
the plane crashed in Pennsylvania during the Sept. 11th attack on 
America. Emotions are tied to these sites. For tribes, these sites are 
held in reverence and are not removed from their memories over any 
period of time. In the lives of Native Americans, events that made an 
area sacred, remain very much alive today.
    In practical terms, Native American tribes know the issues 
pertaining to their respective tribes. They know their geographical 
landscape and their economic conditions. They know what health issues 
afflict them, they know the social ills affecting their citizens and 
they know what methods they used to overcome their challenges and what 
successes they had.
    The consultation of the Federal Communications Commission, (FCC) 
consists of outreach by the Office of Native Affairs and Policy, 
(ONAP), to tribes on a regional basis. Information is presented on 
various policies and programs, i.e., Lifeline, E-Rate, and Rural 
Healthcare. Telecom 101 classes are usually part of the information 
shared at the outreach. The format of the outreach is usually a 
monologue and not a dialogue.
    During the Accelerated Wireless Broadband Deployment NPRM, Chairman 
Pai visited a minimal number of tribes and sought feedback on the 
subject. During this consultation, tribes informed him of their 
concerns of deployment over their respective lands, concern of trespass 
of sacred sites, the lack of carriers for providing information on 
deployment projects and the general lack of consultation by the FCC on 
policy for tribal lands. The format of these meetings appeared to be 
more in line with the true meaning of consultation. A dialogue was 
established and information was exchanged, however it is unknown how 
this was documented and incorporated into policy for the betterment of 
tribes.
Establishing a Collaborative and Structured Process
    The FCC has oversight of the policies over tribal lands and a more 
structured process should be in place. In the case, where tribes were 
``consulted'' by the FCC during the subject of accelerating wireless 
broadband deployment over tribal lands, if an oversight structure was 
in place, perhaps the broadband deployment would have been successful. 
Carriers would have met their deployment objective and more 
importantly, tribes may have obtained access to wireless broadband.
    Currently, meaningful consultation does not appear to be the 
practice of the FCC. Merely going through the motion to meet with 
tribes has not served the FCC as the agency with regulatory oversight 
nor has it served the tribes with meeting their needs for broadband 
deployment. A meaningful dialogue with tribes is necessary to establish 
a business relationship. This can be accomplished by utilizing ONAP. 
Establishing a separate budget for ONAP will enable them to work with 
carriers and tribes and coordinate with the Bureaus of the Federal 
Communications Commission. ONAP can be mandated to produce annual 
reports on their work with tribes on various issues. The report can be 
derived from documentation of meetings with carriers and tribes, based 
on a structured process.
    My points are that tribes know firsthand of their respective issues 
facing their citizens. Currently, there does not seem to be a dialogue 
between the FCC and tribes. If there were a structured consultation 
policy in place, that tribes' input could be put to productive use, 
(within policies).

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
